<html>
<title> - TRANSITIONING TO A NEXT GENERATION HUMAN SPACE FLIGHT SYSTEM</title>
<body><pre>[Senate Hearing 110-1069]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-1069
 
                   TRANSITIONING TO A NEXT GENERATION
                       HUMAN SPACE FLIGHT SYSTEM

=======================================================================


                                HEARING

                               before the

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 28, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
39-519                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel
                                 ------                                

        SUBCOMMITTEE ON SPACE, AERONAUTICS, AND RELATED SCIENCES

BILL NELSON, Florida, Chairman       KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        TRENT LOTT, Mississippi,
MARK PRYOR, Arkansas                 JOHN E. SUNUNU, New Hampshire


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 28, 2007...................................     1
Statement of Senator Nelson......................................     1

                               Witnesses

Dittemore, Ronald D., President, ATK Launch Systems Group........    22
    Prepared statement...........................................    22
Gerstenmaier, William H., Associate Administrator, Space 
  Operations, NASA...............................................     2
    Prepared statement...........................................     2
Horowitz, Scott J., Associate Administrator, Exploration Systems, 
  NASA...........................................................    38
Karas, John C., Vice President and General Manager, Human 
  Spaceflight, Lockheed Martin Space Systems Company.............    10
    Prepared statement...........................................    10
Li, Allen, Director, Acquisition and Sourcing Management, GAO....    13
    Prepared statement...........................................    14
McCulley, Michael J., President and CEO, United Space Alliance...     6
    Prepared statement...........................................     6
Walker, Johnny, Directing Business Representative, District Lodge 
  166, International Association of Machinists and Aerospace 
  Workers........................................................    23
    Prepared statement...........................................    24

                                Appendix

Hutchison, Kay Bailey, U.S. Senator from Texas, prepared 
  statement......................................................    41
Response to written questions submitted by Hon. Kay Bailey 
  Hutchison to:
    Ronald D. Dittemore..........................................    49
    William H. Gerstenmaier......................................    43
    John C. Karas................................................    47
    Allen Li.....................................................    50
    Johnny Walker................................................    49
Response to written questions submitted by Hon. Daniel K. Inouye 
  to William H. Gerstenmaier.....................................    41
Response to written questions submitted by Hon. Bill Nelson to:
    William H. Gerstenmaier......................................    42
    Johnny Walker................................................    48
Response to written questions submitted by Hon. Mark Pryor to:
    William H. Gerstenmaier......................................    46
    John C. Karas................................................    47


     TRANSITIONING TO A NEXT GENERATION HUMAN SPACE FLIGHT PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                               U.S. Senate,
   Subcommittee on Space, Aeronautics, and Related 
                                          Sciences,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. Good afternoon. Thank you all for 
being here. Thanks for all the interest, as evidenced by 
everybody here in the hearing room today. We are going to have 
to be a little flexible today, because they have called a 
series of four votes, starting in just a couple of minutes.
    I will try to keep us going as much as possible, with 
Senator Hutchison coming back over. What we want to do is, to 
really get some quality time talking to you.
    Instead of the typical way, where you read a statement--we 
are not going to do that. We are going to take your written 
statements and put them in the record.
    And save for the interruption that we are going to have 
with the votes, what I want to do is just to have a 
conversation with you about--the subject before us. And that is 
the space program, and what we have to do to keep this gallant 
little program that has been such an inspiration to the 
American people on course, as we shift into a whole new arena, 
with a new set of spacecraft, and as we continue the 
construction of the International Space Station. As we try to 
minimize the gap in human spaceflight, from when we shut down 
the Space Shuttle, to when we start flying humans on the new 
vehicle. And how do we do that?
    If we are not launching humans, how do we do that and keep 
that Space Station going up there as a laboratory. What are 
going to be the geo-politics in 2015? Are the Russians still 
going to be allied with us in 2015? I do not know the answer to 
that. I hope so. But there is no certainty for that.
    These are the kinds of things that we have to talk about. 
We have a star-studded cast here today. Mr. Gerstenmaier, NASA 
Associate Administrator for Space Operations; Mr. Li, GAO 
Acquisition and Sourcing Management; Michael McCulley, Chief 
Executive Officer of United Space Alliance; John Karas, Vice 
President, Space Exploration, from Lockheed Martin; Ron 
Dittemore, President of ATK; and Johnny Walker, the 
International Association of Machinists and Aerospace Workers.
    Well, sure enough, they just called the vote. Why don't you 
go in no particular order, start to offer some of your thoughts 
on this.
    [Laughter.]
    Senator Bill Nelson. Mr. Gerstenmaier.

             STATEMENT OF WILLIAM H. GERSTENMAIER,

           ASSOCIATE ADMINISTRATOR, SPACE OPERATIONS,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. OK. I guess I will start a little bit. I 
think this is a tremendously challenging time, as you laid out. 
And I think the challenge in front of us is how to fly the 
Shuttle safely for the remaining flights, through assembly of 
the Space Station, to get the Space Station built, so we have a 
national laboratory and research facility to go use. That is a 
tremendous challenge in itself, to get that activity done. And 
then at the same time, we need to start preparing and start 
bringing online the Constellation systems. We have started a 
lot of that work already. We have transferred a test stand at 
Stennis over to the new program, to begin engine testing on 
their side.
    The firing room down in Florida. Firing room one has been 
transferred over to exploration, to begin preparations for 
their test flight in 2009. The Operations and Checkout Building 
down in Florida has already been transitioned. So I think we 
have been making pretty good progress overall. We recognize 
that there is a lot of work in front of us. A lot of 
challenges. Many of the questions that you brought up in your 
opening statements we will address later, as we go through. 
But, again, I think we have the right workforce to go do this.
    We have the right contractor-NASA team that is working this 
as a team, figuring out a way to make this go work. And we have 
as good a plan as we can have at this point to go forward, with 
plenty of challenges in front of us.
    [The prepared statement of Mr. Gerstenmaier follows:]

Prepared Statement of William H. Gerstenmaier, Associate Administrator, 
    Space Operations, National Aeronautics and Space Administration
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss NASA's efforts as we 
prepare for the Space Shuttle's retirement and work to develop the new 
human space exploration vehicles. This ``transition'' provides us with 
a unique opportunity to reinvent and revitalize NASA's human 
spaceflight program and make it more efficient by focusing on the 
evolution of our skilled workers and our facilities and infrastructure. 
Never in the almost 50-year history of the agency has a task of this 
magnitude been undertaken. The kind of sweeping changes that this 
transition will bring can be daunting. But what I tell my workforce, 
and what I truly believe, is this: ``We are not going out of business; 
we are starting a new business.'' We have the unique opportunity to be 
performing the most complicated space assembly activities ever 
attempted, preparing the International Space Station (ISS) to become a 
National Laboratory, and developing the systems that will be used for 
human exploration of the solar system. These activities will require us 
all to work together and provide leadership and focus, as many 
activities compete with each other for time and resources. Performing 
these activities successfully will inspire the next generation and 
maintain our world leadership role in space. This is a great time to be 
in the space business.
    For the next 4 years, NASA's top priority is to safely fly the 
remaining Shuttle flights to complete assembly of the International 
Space Station (ISS). At the same time, the agency is preparing to bring 
the new U.S. human spaceflight capabilities on-line soon thereafter. 
With the retirement of the Shuttle in 2010, NASA will fundamentally 
shift from the current primary focus on operations to one in which we 
develop new systems, conduct research on the ISS, and re-establish the 
capability for space exploration missions beyond low Earth orbit, with 
the ultimate goal of returning to the Moon, going to Mars and beyond. 
These are significant challenges, and we need help from Congress to 
succeed, specifically by supporting the Vision for Space Exploration, 
approving the President's FY 2008 budget for NASA at the requested 
levels and approving the workforce transition and facilities management 
tools in the legislative proposal that NASA recently submitted to 
Congress. I appreciate the leadership of this subcommittee and the 
Congress in enacting the NASA Authorization Act of 2005 (P.L. 109-155); 
this legislation is a good example of the support that you have already 
provided.
    An effective transition of workforce, facilities, and contractor 
support from the Space Shuttle program to the new Constellation program 
will be jeopardized by a prolonged gap between Shuttle operations and 
the Initial Operating Capability of Orion and Ares, such as the gap 
which developed between the Apollo-Soyuz program and the maiden flight 
of the Space Shuttle. Our job as a leadership team is to actively 
manage the gap, ensure that our workforce skills are rebalanced to meet 
the evolved focus of the agency, and effectively communicate our 
actions and goals to all of our stakeholders, most importantly our 
employees.
    Funding limitations and hardware development lead times will not 
allow us to overlap Shuttle and Constellation capabilities. We know 
there will be a gap--our job is to keep this gap to a minimum, and with 
your help, this can be accomplished. I am often asked why NASA does not 
just extend the Shuttle program to close the gap. The primary reason I 
give is that the high fixed costs of the Shuttle program do not allow 
that strategy to work. Extending the Shuttle program a year would cost 
approximately $3-4 billion per year. These funds would come from 
Constellation development and, consequently, would only extend the gap. 
Another reason is that the Shuttle is an extremely complicated vehicle 
to operate. Many systems interact with others. Consider the interaction 
of foam from the tank on the Shuttle as an example. Safely operating 
this complex vehicle is not easy. NASA has chosen to use the Shuttle 
with this safety complexity for only those missions requiring the 
Shuttle's unique capabilities. The assembly of the ISS, Hubble Space 
Telescope servicing mission, and ISS spares carried on the logistics 
flights all require the unique capability of the Shuttle. Once these 
missions are complete, NASA needs to transition to the simpler and 
safer Orion Crew Exploration Vehicle (CEV) as soon as feasible. We 
believe that human spaceflight is a strategic capability for this 
Nation, and we recognize the important role NASA plays in ensuring the 
U.S. maintains this capability.
    Transition starts with phasing out the Space Shuttle and bringing 
CEV online, continues with the research and testing that will take 
place on the ISS as part of a National Laboratory, and includes using 
the Commercial Orbital Transportation Services (COTS) program to 
demonstrate new capabilities for re-supply. As the Shuttle approaches 
its retirement, the ISS Program intends to use alternative cargo and 
crew transportation services from commercial industry. Once a 
capability is demonstrated in Phase 1 of the Commercial Orbital 
Transportation Services (COTS) Space Act Agreements, NASA plans to 
purchase cargo delivery services competitively in Phase 2 and will 
decide whether to pursue crew demonstrations. NASA will be in an almost 
continual state of transition as development of one phase of 
exploration transitions from development to operations. Consequently, 
what we are establishing now is a transition framework that will serve 
us through the decades ahead. NASA chose not to create a separate 
program to manage transition, but instead utilize organizational 
elements within the existing operating program and the future 
exploration program. This structure ties transition directly to the 
safe operation of our programs and allows for a framework for 
transition to be established within NASA.
    The goal of transition is to keep the U.S. space workforce fully 
engaged and moving toward design and development of the new vehicles. 
Our focus is on life-cycle cost and risk management of our workforce, 
infrastructure, and facilities, including the necessary budget and 
plans to execute the ambitious agenda at hand. Full funding of NASA's 
FY 2008 budget request is critical to ensuring the gap between 
retirement of the Space Shuttle and America's new human spaceflight 
capability does not grow longer. If the gap in our human spaceflight 
capability extends even further than already planned, I believe our 
Nation may be ceding leadership in human spaceflight at a time when 
other nations are outlining ambitious programs of their own.
    NASA's transition planning activities emphasize three major themes: 
1) safely flying out the Shuttle manifest; 2) closing out and 
streamlining our facilities and infrastructure; and 3) reorienting our 
workforce for future missions. We are heading in the right direction 
and have a robust plan in place with the right people to execute it. We 
have made great strides this past year and will maintain this momentum 
as we continue to make substantial and rapid progress in carrying out 
the challenging space operations and transition tasks ahead.
1. Safely Flying Out the Shuttle Manifest
    While we look toward the future, we know we cannot lose sight of 
the present. NASA is committed to safely flying the Shuttle through its 
retirement in 2010 to complete construction of the ISS, which will 
fulfill our commitments to our International Partners and enable us to 
conduct exploration-focused research onboard. While there are 
challenges ahead, we have a good, sound plan that places safety above 
all else. As evidenced by the recent hail storm that caused damage to 
the STS-117 External Tank, that plan may not go exactly the way we have 
laid out, but we are prepared to continue working through it and to 
adjust as needed. We will learn from these challenges and gain 
experience necessary for future ventures to the Moon and Mars.
    The Shuttle manifest calls for 13 assembly flights to the ISS, one 
to service the Hubble Space Telescope. In addition, we could 
potentially add 2 ISS logistics flights to the manifest if they are 
needed and can be flown safely before the Shuttle's 2010 retirement. In 
order to safely complete these missions, retention of our workforce, 
with their skills and tremendous dedication, is critical. A recent 
survey of Shuttle personnel across the NASA field centers clearly 
demonstrates that we have highly-motivated people who want to stay for 
the remainder of the program and see it succeed. As an Agency, we share 
their pride in the program's accomplishments and are heartened by their 
commitment to safety and mission success. As leaders we contribute to 
this success by showing through our actions a strong commitment to 
these activities, as well as the promise of exciting future endeavors.
2. Infrastructure and Facilities
    The Shuttle program currently occupies over 600 facilities at both 
government and contractor sites and has more than 900,000 pieces of 
equipment. The estimated new acquisition value of these assets is 
approximately $12 billion for equipment and approximately $5.7 billion 
for facilities. This is a vast amount of resources that the American 
people have invested in and entrusted us with. We are committed to 
leveraging this investment by utilizing Shuttle infrastructure wherever 
it makes sense in the Constellation programs. We have already made 
progress in this respect. At NASA's Kennedy Space Center in Florida, 
the Space Shuttle program has transitioned Firing Room 1 and the 
Operations and Checkout Building to Constellation. Work is also 
underway to transition Launch Complex 39B to eventually launch Ares and 
Orion. At Stennis Space Center in Mississippi, the A1 Rocket Test 
Stand, formerly used to test the Space Shuttle Main Engine, is now 
testing engines for Constellation. And at Johnson Space Center, key 
leaders in the ISS program have transitioned to senior management 
positions in Exploration, bringing with them their technical and 
programmatic expertise.
    Since our new spacecraft designs are Shuttle-derived, we can build 
on the existing infrastructure across the agency. However, many of our 
key facilities and infrastructure elements are almost 50 years old in 
areas prone to aggressive climate impacts and heavy operational 
demands. As the transition to the next U.S. human spaceflight 
capability progresses, we have the opportunity to streamline all 
aspects of our business and provide more value to the American people. 
We also are assessing our infrastructure to ensure that we have the 
necessary foundation for the next 30 years of exploration activities.
3. Workforce
    Guiding the agency's transition is the recognition of the critical 
role played by our approximately 17,000-strong workforce. As the 
Associate Administrator for Exploration Systems Scott Horowitz likes to 
say, ``When folks ask me how we go into space, they expect me to say 
`Rockets and hardware,' but I think people make the Space Shuttle fly 
not hardware.'' The men and women who work in the Space Shuttle program 
are some of the Nation's most skilled, efficient, and committed 
workers--qualities that the agency and Nation needs for its future 
missions and must capitalize upon.
    As mentioned earlier, the nature of the work these employees will 
do will change as we transition from Shuttle operations to research and 
development-focused activities like planning, design, testing and 
verification for Constellation systems. We are striving to give our 
employees opportunities to build on their existing skills by working on 
the new exploration systems, so that when this development work comes 
on-line, they can easily transition into new positions. Coupled with 
newly gained skills, our workforce can take the skills honed in Shuttle 
operations and apply them to the design of the next vehicle to make it 
fly more efficiently. Preventing a prolonged gap between the last 
Shuttle flight and the first Orion flight remains the single most 
important factor in workforce transition. The longer the gap, the more 
difficult it becomes to retain our needed workforce.
    As the Constellation System Requirements Reviews are completed this 
year, NASA will gain a much clearer understanding of the demands for 
future workforce skills, which will form the foundation for making any 
future decisions. Although we are proud of recent progress, we 
acknowledge that more needs to be accomplished. These tasks include 
matching available skills with future work, managing attrition, 
retraining and hiring, and using temporary and term appointments to get 
the flexibility to align our needs with our time-phased workload.
    NASA remains committed to working with our industry, supplier, and 
research partners to craft and implement strategies to minimize 
disruption, upheaval, and economic impact, while maximizing support 
vital for Shuttle missions and program requirements. As we move 
forward, we know that clear communication and solid leadership will be 
key to our success. I cannot stress one point enough--NASA recognizes 
and values the dedication of its Shuttle workforce. The Agency in 
return is dedicated to ensuring that those men and women have 
challenging future work that capitalizes on their unique skills and 
abilities. Make no mistake there will be changes for our workforce, but 
if we provide leadership and focus, I am confident that this team will 
respond. They have overcome difficult challenges in the past: Katrina, 
hail storms, and the Columbia disaster. If we can give them a vision of 
the future, they will help us to realize that future. This is the best 
workforce in the world.
Conclusion
    NASA has many transition challenges ahead of us, but we are on 
track and making substantial progress in managing a fundamental shift 
from operating spacecraft in orbit around the Earth to cutting-edge 
research and development for space exploration that will push humanity 
out of low-Earth orbit and across the solar system. This is an exciting 
time for NASA and the Nation.
    We need your continued support to accomplish this endeavor and to 
ensure that the United States maintains its status as the world leader 
in human space exploration. Thank you for the opportunity to discuss 
this important effort, and I would be pleased to respond to any 
questions that you may have.

    Senator Bill Nelson. Dr. Griffin told me that he felt like 
that in order to get the gap, that is now up to 2015, with the 
funding profile that there is now, back to 2013, a 3-year gap. 
He would need an additional $400 million over and above the 
President's request in 2008 and an additional $600 million in 
2009 and 2010 over and above what is the expected President's 
request. Tell me what you think.
    Mr. Gerstenmaier. Again, I think we would really like to 
take that for the record and go put some analysis behind that, 
and see how it really fits. I think conceptually those are the 
right numbers. But there are lots of details that go behind 
that. Even though the funding may be there, there may be 
critical components on the critical path that we just cannot 
get completed in time to make those schedules. So I think we 
need a little bit of time to go sort through all that and see 
how all that fits. And then see if it fits financially as well 
as if it fits technically in that period that you just 
described.
    Senator Bill Nelson. It was $800 million in Fiscal Year 
2009 and another $800 million, Fiscal Year 2010. Instead of 
$600 million. So the White House could help us, if they would 
request the increase instead of their increases coming way 
underneath what the authorization bill calls for. But it is 
what it is. And we are where we are. So either we are going to 
give you all the resources with which to be able to narrow to a 
3-year gap. Or it is going to be a 5-year gap.
    Mr. McCulley, what would be some of the consequences of a 
5-year gap down at the Cape?

  STATEMENT OF MICHAEL J. McCULLEY, PRESIDENT AND CEO, UNITED 
                         SPACE ALLIANCE

    Mr. McCulley. A tremendous loss of a critical national 
resource in the workforce. Not in numbers so much as it is in 
the skill sets that exist there. As you well know, and 
certainly everybody on this panel knows, we are primarily ops. 
Not development. Not design. Not manufacturing. And the skill 
set is a unique skill set, whether it is in Houston or whether 
it is in Florida, whether it is rendezvous and proximity 
operations, or whether it is process and flight hardware, and 
payloads, and the pads, and all those things.
    An extended gap just makes it a larger problem for us to 
figure out how to keep the skill set that the Nation needs to 
operate the next vehicle.
    [The prepared statement of Mr. McCulley follows:]

     Prepared Statement of Michael J. McCulley, President and CEO, 
                         United Space Alliance
    Chairman Nelson, Senator Hutchison, members of the Subcommittee, 
thank you for providing me the opportunity to discuss the transition 
from the Space Shuttle to the Constellation programs now underway in 
America's human spaceflight program.
    On behalf of the 10,000 employees of United Space Alliance and our 
5,000 supplier employees across the Nation, I thank you for caring 
about the future of these highly skilled workers and valuing the human 
spaceflight community's contribution to the economic security of our 
Nation.
    Congress has always recognized the importance of investing in NASA 
and its crucial role in advancing the Nation's scientific, economic and 
security interests, as well as fostering the next generation of 
America's scientists and engineers. NASA's benefits go well beyond just 
the acquisition of space goods and services. NASA and its industry 
partners develop critical technologies that broadly benefit our 
society, spur the development and advancement of competitive 
industries, and encourage young people to study disciplines that will 
enable them to successfully enter the modern global economic workforce. 
According to the Aerospace Industries Association, in 2006 U.S. 
aerospace industry revenues topped $184 billion. Due to its 
international competitiveness, our industry is one of the few that 
carries a trade surplus--$52 billion last year. The level of exports by 
our aerospace industry is almost three times the level of imports.
    The transition from Shuttle to Constellation will have a ripple 
effect throughout our industry and our national economy. The question 
is whether that effect will be positive.
    As NASA Administrator, Mike Griffin, has testified, the transition 
will be a challenging and multi-tiered process that will touch every 
aspect of human spaceflight operations. NASA is expected to finish 
construction of the International Space Station by safely flying the 
Shuttle while also bringing online the most diverse mix of space 
vehicles to be developed, maintained and flown in more than a 
generation: the Orion Crew Capsule, the Shuttle-derived Ares I Crew 
Launch Vehicle (CLV), a Heavy Lift Cargo Launch Vehicle (CaLV) known as 
Ares V, the Lunar Lander, and other vehicles with varied cargo and 
payload capabilities.
    As you know, USA does not determine the budget or policy for the 
NASA human spaceflight program, but rather, we implement in support of 
our NASA customer. That said, I have been asked to comment on the 
transition from current Shuttle operations to the next generation of 
spaceflight vehicles.
``The Gap''
    As currently defined, there will be a four or five-year gap between 
the final Space Shuttle flight in September 2010, and the first planned 
Ares I crew launch. During ``the gap,'' the United States, the 
recognized leader in space exploration and human spaceflight, will be 
dependent on Russia, ESA, Japan and the now-developmental COTS vehicles 
for human and logistics transportation to the ISS and will be buying 
services using U.S. taxpayer dollars.
    I know that members of this committee and other Members of Congress 
recognize that a lengthy gap will jeopardize our global leadership in 
space and are seeking ways to make ``the gap'' as short as possible. 
Russia, China, India, Japan, and European nations are investing in 
human space exploration. In order to maintain our leadership, Americans 
must work together to shorten ``the gap'' to the least time possible or 
to eliminate it altogether.
    I believe a fundamental step in minimizing this gap is to ensure 
that the current programs' relevant assets, infrastructure, experience, 
and employee skills are effectively migrated to future programs. Our 
success as a combined government-industry partnership in addressing 
this migration will be the key to the efficiency, reliability, safety 
and overall success of the new programs.
    We should remember the impact of the gap between Apollo and 
Shuttle, not only on local economies (Florida, Texas, California, 
etc.), but also on our national interest, was severe. NASA had planned 
for a two-year gap, but it turned into a six-year gap. For all the 
reasons eloquently stated by NASA Administrator, Mike Griffin, we do 
not wish to repeat that experience. We learned that without a focused 
and detailed transition plan, entire national capabilities and human 
capital assets can be lost--some for an entire generation. When the gap 
between programs is minimal, as was the case between Gemini and Apollo, 
crafting a bridge between programs is not as challenging. When the gap 
is large, as was the case between Apollo and Shuttle, the loss is 
damaging for our Nation's economy and technological competitiveness. If 
we fail, future generations will suffer. Our Nation cannot afford to 
repeat the mistakes made during the 1970's.
ISS Completion
    NASA has defined 15 additional missions to be flown by September 
2010, to complete ISS assembly and provide required logistic support. 
NASA also has planned one mission for repair and servicing of the 
Hubble Space Telescope. Mike Griffin has made it clear that safe 
operation of the Space Shuttle to achieve these 16 flights is NASA's 
top priority. This will require adequate NASA top line funding levels 
in each of the remaining years of Shuttle operation.
    Currently, funding for the Constellation program, which includes 
the new Ares and Orion projects, is not adequate. NASA's recent 
announcement that the first crewed flight of Ares I will be delayed is 
a clear indication that ``the gap'' in America's human spaceflight 
programs is growing. This also sends a signal that additional funding 
will be required to stem that growth and, if possible, to accelerate 
development of the Constellation family of vehicles, in order to 
shorten ``the gap'' as much as possible.
    I recognize the role that political, technical and budget factors 
must play in determining our approach to achieving ultimate success, 
and that each factor impacts the others. It is inescapable that a FY 07 
budget shortfall will impact technical decisions. A reprioritization of 
NASA programs by Congress will require a shifting of budget resources 
from some programs to others. Technical issues can impact both 
political and budget decisions. We were all reminded that there are 
factors beyond our control, when a freak hailstorm recently damaged the 
Shuttle's external fuel tank. That said, these factors can be managed 
in balance, a balance that will be determined by the policy and budget 
decisions you make.
    The critical issue is not whether we are technically up to the 
task. The critical issue is whether resources will be provided to 
accomplish these tasks.
    In my opinion, it's ``gut-check'' time. The Administration needs to 
step up and support the Vision with a request for adequate funding 
levels for NASA. After all, Congress and the President made the Vision 
for Space Exploration law when the NASA Authorization Act of 2005 was 
enacted.
    Since the Vision was announced in January 2004, several funding 
problems have been brought to light. The NASA FY 2005 projected budget 
run out for FY 2008 was $18 billion. Now NASA's budget request is $17.3 
billion. The costs to retire and transition Shuttle in the original FY 
2005 budget request were underestimated for FY 08-10 by $2.4 billion, 
while the costs to support Space Station were underestimated by $1.4 
billion for that period. Coupled with the unanticipated costs of 
Return-to-Flight (estimated to be $2.4 billion) and the addition of a 
Hubble servicing mission, NASA has been forced to absorb about $9 
billion. To accommodate these shortfalls, NASA has had to cut some 
programs and slow the development of others.
    As you know, NASA's top line request represents just \6/10\ of 1 
percent of the Nation's budget and is $1.4 billion less than the 
Congressionally authorized level this subcommittee approved, and which 
was signed into law by President Bush. The FY 2007 budget was reduced 
by about $700 million due to the Joint Resolution, despite the Senate's 
leadership in increasing the top line by $1.1 billion in the reported 
appropriations bill for FY 2007. Now, neither the FY 2007, nor FY 2008, 
budgets are adequate to achieve the policy goals established in the 
Vision.
    Please let me take this opportunity to thank you once again for 
your leadership in supporting a top line increase for NASA's budget 
during your deliberations on both the authorization and appropriations 
bills.
    The Mikulski-Hutchison Amendment, which proposed to increase the 
NASA FY 2007 top line, would have helped restore the much-needed 
resources and help shorten ``the gap.'' Unfortunately, that amendment 
was never enacted into law and the FY 2008 budget request for NASA does 
not reflect the real needs of the agency.
    President Bush set, and bipartisan majorities in both Houses of 
Congress approved, the Vision policy goals. After spending billions of 
the taxpayers' hard-earned dollars, the ISS is finally close to 
completion. This national asset is ready to start producing results 
that will positively impact us here on Earth. It therefore remains a 
responsible policy decision to finish the ISS and meet our 
international obligations, as well as our obligations to U.S. 
scientists and researchers who have long been waiting for this unique 
national laboratory to be open for business.
    I understand that members of this committee, as well as members of 
the Committee on Appropriations, are proposing a ``Space Summit'' be 
held with President Bush to discuss both the budgetary and policy 
issues associated with the Vision. Clearly, the importance of the 
challenge we face warrants every constructive effort.
The Challenge: Continuity and Change
    The primary challenge we face today stems from the need to maintain 
our human access to space for continued research, discovery, global 
economic competitiveness and national security, while at the same time 
closing out the Shuttle program.
    These twin tasks are straining NASA's resources in what is clearly 
a difficult budgetary environment.
    Four years ago, this subcommittee heard members of the Columbia 
Accident Investigation Board (CAIB) report that the NASA human 
spaceflight program, in general, and the Space Shuttle program, in 
particular, had been starved of necessary funding for nearly a decade. 
But the CAIB did not stop there; it also reported that the burdens of 
meeting the schedule for construction and completion of the ISS were 
leading the Shuttle program to the brink of its safe capabilities. 
Today, 4 years later, we are confident that the Shuttle is as safe a 
vehicle as it can possibly be, but we remain concerned about the ever-
increasing pressures on NASA's top line budget.
    We are once again seeing budget strains across the agency. It is a 
fact that the NASA budgets prepared and approved before the Columbia 
tragedy were never revised to accommodate the cost of recovery from the 
accident or the upgrades mandated by the CAIB for Return-to-Flight.
    And now, we have the additional factor of transition from Shuttle 
to Ares/Orion. As the stockpiles of Shuttle-unique hardware reach 
sufficient levels to support the remaining missions, contracts are not 
being renewed and the production and manufacturing of many ``Shuttle-
only'' elements are being terminated. These capabilities, once shut 
down, are costly, or impossible, to restore. Although the Shuttle's 
final flight is more than 3 years away, many suppliers are exiting the 
Shuttle program now. We must have a plan in place, soon, and the funds 
to implement it, if we are to retain skills and apply years of 
experience to the new missions of exploration.
USA Transition Planning
    At United Space Alliance, we have conducted, and will continue to 
conduct, research into human capital management strategies and options, 
and we plan to take aggressive measures to help narrow ``the gap'' 
through retention of the right skill mix and experience base. Our 
planning activities are taking into consideration lessons learned from 
previous programs that implemented terminations and transitions. 
However, we recognize the Shuttle transition will be the most complex 
undertaking to date.
    The Shuttle program must remain safe and fully operational during 
its close-out, while transitioning personnel and hardware to the new 
exploration programs. In the programs benchmarked by our transition 
planning teams, we found, not surprisingly, that successful transitions 
involved early identification of critical skills required for 
retention, retraining requirements, financial incentives, and most 
importantly, an overarching clear and concise transition roadmap 
approved up-front by the government and industry partners, which 
addressed both human capital and hardware. We also found that accurate 
and regular communication with the workforce was critical to keeping 
employees focused on their present jobs, while allowing them to prepare 
and train for the challenges of new work.
    Clearly, USA has a major stake in assuring that the transition 
process is seamless and successful. For a decade, we have served as the 
NASA prime contractor for Shuttle operations as well as ground support 
and mission operations for the ISS. Our challenge is how to best manage 
this transition and ensure the safety of ongoing Space Shuttle and 
Space Station operations.
A Critical National Asset
    As I stated earlier, I believe the most crucial element for 
successful transition from Shuttle to the new exploration program is 
the retention of the current contractor workforce, with its unique 
skills and unrivaled knowledge of virtually every aspect of space 
operations. This workforce is essential both to the ongoing safety and 
success of final Shuttle operations and on the startup of the new 
exploration programs. Our extensive experience in integrating Shuttle 
payloads of all kinds will be critical to the successful processing of 
the different mix of spacecraft that will come on line. The current 
workforce's knowledge of maintaining a fleet of both human-rated 
spacecraft and rockets is the only baseline of experience that can be 
considered pertinent to supporting multiple kinds of Constellation 
missions. Skills in developing mission manifests, designing EVA and 
training schedules identifying and addressing flight plan issues and 
crew equipment, processing and testing spacecraft, and operating and 
maintaining ground systems, are crucial to planning and executing the 
low-Earth orbit and lunar exploration missions of the Constellation 
program.
    USA is pursuing a number of options for preserving and developing 
this irreplaceable national asset for the future. Skills retention is 
the prime objective of a company-wide initiative that involves 
workforce training and development, flexible utilization of skills for 
early Constellation work, retention training for managers and retention 
incentives for employees. As we evaluate and prioritize our workforce 
skills, our process will allow us to identify those mission operations 
and training skills that will be unique to exploring the surface of the 
Moon, as well as establishing the initial lunar outposts. Above all, 
Constellation must have a long-range acquisition strategy so that all 
contractors and suppliers can plan for competitive procurements and 
project which skills and assets will be needed and when.
    We must also plan for the retirement or transition of physical 
assets. While NASA has identified the major issues facing the 
industrial base, the ability to engage in transition planning for both 
hardware and human assets is being hampered by inadequate funding. The 
Administration has acknowledged the need for a smooth and seamless 
transition, but as far as I can tell, plans have not been completed for 
providing NASA the necessary funds to ensure success.
Investing in Our Future
    NASA has made large investments in new safety procedures and 
technologies, to implement the recommendations of the CAIB report. 
Furthermore, NASA experienced hurricane damage to facilities in 2004 
and 2005, that were estimated to cost more to repair than what Congress 
provided in the supplementals. The cuts to NASA's budget sustained as a 
result of the FY 2007 Continuing Resolution are serious and will have 
serious consequences. As I noted, the FY 2008 request does not take 
those cuts into account.
    Administrator Griffin stated, in a letter to Congress, estimated 
total cost for NASA's Shuttle Return-to-Flight. These funds have been 
used, among other purposes, to build and deploy foam refinements and 
tests, to make new cameras and tile inspection sensors, and to develop 
new repair and inspection technologies, such as the 50-foot inspection 
boom that has been on prominent display following the return to flight 
after the Columbia accident. Other new costs include systems 
engineering and integration, additional workforce, and the new NASA 
Engineering and Safety Center and Independent Technical Authority.
    None of these costs were supported with requests for additional 
funds; each had to be absorbed by NASA's other budgeted activities, 
thus adding even more pressure to an already austere budget. This makes 
little sense to me, at a time when we, as a nation, are seeking to 
enhance our technological competitive capabilities--something in which 
NASA's programs have historically played a prominent, even preeminent 
role.
Conclusion
    To be sure, there are difficult days ahead in this transition 
effort. It is essential that we commit our very best efforts to 
continuing this Nation's tradition of excellence and leadership in 
space technology and exploration. We have traveled this road twice 
before in NASA's history. The transitions from Gemini to Apollo, and 
Apollo to Shuttle, were challenges that tested our commitment and 
resolve. If we apply the lessons we've learned from these previous 
transitions, we will avoid many of the difficulties our predecessors 
encountered along the way. And, most importantly, if we apply the 
experience gained from the decades of Shuttle and Station operations to 
the new Constellation program, we will build on knowledge we have 
gained from our inspiring work in building our permanently-inhabited 
laboratory in space.
    I want to thank the Subcommittee, again, for this opportunity to 
come before you today, and I am pleased to answer any questions that 
you may have.

    Senator Bill Nelson. And part of it will be, thanks to the 
proposal by the successful contractor, part of it will be 
absorbed in the assembly of the new vehicle down at the space 
center. Which not only makes good sense in helping retain skill 
sets, but it also adds an extra set of eyes.
    You have the launch team right there next to the assembly 
team. So you have extra eyes on the problem, and communication, 
in order to increase the safety of the construction. That will 
help some. What do you think about that, Mr. Karas?

           STATEMENT OF JOHN C. KARAS, VICE PRESIDENT

            AND GENERAL MANAGER, HUMAN SPACEFLIGHT,

             LOCKHEED MARTIN SPACE SYSTEMS COMPANY

    Mr. Karas. Well, I think that is correct Mr. Chairman, I 
think you are exactly right. It allows us to utilize the 
workforce that is there. The experienced workforce and a second 
set of eyes, but also the efficiency, as you mentioned, to help 
reduce overall ops costs. Because we have manufacturing there.
    And as you know, the O&C will be doing manufacturing, final 
test assembly, launch recovery and refurbishment down there. 
And we are looking for other opportunities to utilize the 
workforce down at the Cape, such as putting logistics down 
there. And there are some other opportunities where there might 
be other test lab capabilities.
    So we are looking to expand our footprint down at the Cape, 
to help alleviate that problem as best we can.
    [The prepared statement of Mr. Karas follows:]

    Prepared Statement of John C. Karas, Vice President and General 
   Manager, Human Spaceflight, Lockheed Martin Space Systems Company
    Good afternoon, Mr. Chairman, Senator Hutchison and distinguished 
Committee members.
    I am honored to appear before you today to discuss a critical 
process of transition that lies before us in the next several years. We 
should all work together to understand the impact that such a 
transition will have on key NASA Centers, their employees, their 
contractors and their communities. Our collective skill in negotiating 
that transition will determine whether or not America retains its hard-
earned mantle of leadership in space science and exploration.
    There is a concern that budget pressures may threaten our ability 
to execute a smooth and timely transition from Space Shuttle operations 
to a fully developed system of new launch and exploration vehicles. If 
key schedule milestones are to be met, it is important that all of us 
in industry and in the government reach agreement on a number of 
issues. Many of these issues are a product of the tension between long-
term budget uncertainties and program technical, schedule, and cost 
performance.
    Working closely together, NASA and the Lockheed Martin Orion team 
have sought to identify the key ingredients of a successful program and 
to ensure that they remain part of the recipe. We have imposed rigorous 
cost controls in order to keep the overall program within the budget 
constraints set by Congress.
    While there are differences of opinion about some elements of the 
way forward, there is substantial agreement about the priorities: safe 
and successful fly-out of the Shuttle; and safe, successful, smooth, 
and affordable transition from Shuttle to the next-generation human 
spaceflight system. Although Lockheed Martin is now responsible for 
development of Orion, we also have a vested interest in the successful 
fly-out of the Shuttle. Not only are we a parent company of United 
Space Alliance, the company responsible for Shuttle operations, but we 
also build the External Tank, providing support to the Shuttle program 
in Texas, Florida, and Louisiana. We're as committed at the front end 
as we are at the back end.
    As we contemplate next steps, the NASA/industry team must accept an 
important reality: there will be an uncomfortable gap between the last 
Shuttle flight and the first Orion flight. The march of time and the 
pressure of budget realities virtually guarantee it. Our job is to 
minimize the gap, develop work-around strategies and execute our 
development plan as flawlessly as possible.
    Some of the work will have to be done serially, some of it will 
overlap, and some of it will be done in parallel. An example of 
parallel tasks is the need to continue flying the Shuttle safely while 
we develop its replacement. In order to do so successfully, we must 
continue to inspire, motivate and reward the Shuttle workforce while at 
the same time identifying, recruiting and retaining the new skills and 
workers that Orion will require.
    Similarly, NASA and its prime contractors must provide a 
programmatic and technical roadmap to key suppliers, one that 
encourages them to invest in future capabilities while continuing to 
produce defect-free support for existing systems.
    The workforce and the supplier base are both particularly 
vulnerable to gaps in development, production and operations schedules. 
Once the pipeline of projects begins to run dry, individuals and 
businesses begin to head for the exits. As tribal knowledge fades and 
spare parts dwindle, the risks to existing programs mount and the 
possibility of new ones diminishes.
    Lockheed Martin has recent experience with this kind of dilemma. We 
have served as the prime contractor on numerous spacecraft development 
and operations programs that have completed their life-cycle over the 
past 50 years, repeatedly facing the challenges of transitioning 
skilled workforce and facilities across programs. During the 
transitional phases of the Titan and Atlas space booster programs, we 
gained valuable insight into the most productive ways to achieve 
mission success while making changes in workforce, facilities and 
processes.
    In 1993, Martin Marietta Corporation bought General Dynamics Space 
Systems Division, and in the mid-1990s, moved the Atlas operations from 
San Diego to Denver. This involved the relocation of people and 
tooling, the construction of facilities and the seamless hand-off of 
work-in-progress between two sets of workers hundreds of miles apart.
    During this transition and workforce relocation, our launch 
operations team was able to conduct 12 successful Atlas missions. 
Furthermore, all of the Atlas hardware built during the transition 
passed inspection and flew successfully on subsequent missions. At the 
same time, we developed new Atlas variants, incorporating a planned set 
of improvements, and significantly reduced operations costs. This 
evolutionary process inspired the Atlas workforce to remain with the 
program through the challenges of relocation and uncertainty. NASA is 
off to a good start in much the same way, with the development of 
Orion, Ares I, Ares V, and the Earth Departure Stage.
    As the prospect of downsizing and skill mix adjustments loom in the 
close-out of Shuttle operations, lessons that we learned at the end of 
the Titan program are also applicable. In its final years of operation, 
Titan IV was called upon to launch some of this Nation's most important 
national security payloads. It was vitally important to maintain a 
dedicated, skilled workforce as we reached the last missions of the 
program. Through a combination of re-training and Mission Success 
incentives, we achieved 100 percent Mission Success through the end of 
the Titan IV program. Many of the highly-skilled employees that 
remained on the program to the end are now valued members of the 
Lockheed Martin Orion team.
    What are the keys to success? Good planning, obsessive attention to 
detail, and most importantly, good change managers to lead during this 
time of uncertainty.
    One element that both the Atlas transition and the Titan close-out 
had in common was the sense of continuity. The workforce in each case 
was given clear, honest information about the road ahead. They knew the 
role that they would play, the importance of the mission, the outlines 
of the plan, and the arrangements that would protect their jobs or 
provide for follow-on opportunities. No one had to fear the future.
    If the Shuttle-to-Constellation transition is to enjoy the same 
level of success, we will need to provide the NASA and contractor 
workforce with a similar sense of continuity. We will need to 
communicate our plans for them and for their workplaces. And we will 
need to take visible steps to mitigate transition-related impacts on 
job stability.
    While the NASA/industry team must develop and execute this 
transition plan, Congress plays an important role as well. Assured 
funding and consistent program authorization are key ingredients in 
providing continuity in program planning. To this end, we commend this 
committee for your last authorization bill, and urge full support for 
your FY 08 NASA Authorization.
    But it is unlikely that the pressures on Congress will abate 
anytime soon. Yet there are measures that can be taken to ``smooth out 
the oscillations'' as we engineers might say. For example, in bidding 
for the Orion program, the Lockheed Martin team focused on what we call 
the ``Southern Crescent'' approach. Since we knew that low cost would 
be a crucial element of a winning proposal, we sought to identify cost 
mitigators that would not jeopardize mission success. The location, 
condition and particular strengths of the NASA Centers became a key 
consideration in the proposed siting of Orion work. We fashioned a 
proposal that leveraged the pre-existing skilled workforce and 
facilities, the willingness of local communities to invest in the 
retention of key enterprises, and the logistical advantages conferred 
by geography. The presence of unique facilities, experienced workers 
and supportive communities at each NASA Center provided a ``win-win'' 
solution.
    While our teammate, Orbital is working closely with Langley 
Research Center on the Launch Abort System and we are working with 
Glenn Research Center on the Orion Service Module, we and our teammates 
have located our crew capsule development activities near the southern 
NASA Centers. This strategy enables us to leverage the invaluable, 
recent human spaceflight experience, both within NASA and among the 
many NASA suppliers in the communities. Lockheed Martin's Orion Project 
Office and our design and development team are located near JSC in 
Texas. We are building the Orion structure at the Michoud Assembly 
Facility in Louisiana. Orion cable harnesses and ground support 
equipment are being developed and built at Stennis in Mississippi. And 
Orion final assembly, test, and launch operations will all take place 
at KSC in Florida. As part of this continuing strategy, we are already 
working as a subcontractor on the Commercial Orbital Transportation 
System at Michoud and on the Ares I-1 Avionics Integration contract at 
Marshall Space Flight Center. Lockheed Martin and our Orion teammates 
Hamilton Sundstrand, Honeywell and United Space Alliance, are busy with 
important roles on Shuttle at JSC and KSC. These contracts provide us 
with unique insight into the dimensions of the workforce transition 
challenge and facilitate a smoother transition for our second-tier 
suppliers. We are already identifying opportunities for crossover 
employment and retraining that can be an element of our workforce 
utilization strategy.
    As we face this transition challenge, care must be taken to keep 
the promise of these Centers and not squander the institutional and 
individual competence that has been built up over the years. It is 
important to ensure clear, open communication with the workforce and 
the community. The NASA workforce and their community supporters are 
mature and realistic. If dealt with in a forthright fashion, they will 
want to stay on the team and be a part of NASA's future. As we strive 
to meet strict cost standards, it only makes sense to avail ourselves 
of existing skills, experienced workers and already-capitalized 
facilities. To further enable a smooth transition, we must ensure that 
NASA's premier facilities are maintained and that obsolete facilities 
are retired. We encourage expanding NASA's Enhanced Use Lease authority 
to guarantee the most efficient use of NASA's human spaceflight 
facilities.
    To assure successful transition, there must be more than just good 
intentions. Reliable close-out schedules, retraining opportunities and 
``bridging'' work on other projects are ways in which to preserve 
workforce loyalty and performance. The Orion team and the NASA Centers 
are committed to using best practices in managing the human spaceflight 
transition.
    Some of these best practices are proven human resources techniques: 
skills assessment and inventory, career and vocational counseling, job 
tracking and database management, skills refreshment and retention, 
incentive programs, community outreach and local economic development 
partnerships.
    Even with the most effective transition strategies, there will be 
some inevitable attrition of the workforce. The demographics ensure 
that we are on the threshold of a significant surge in retirements. Two 
imperatives arise from this fact: one, knowledge capture and retention 
must be accomplished proactively through mentoring programs, exit 
interviews and archiving; second, recruitment must be synchronized and 
integrated with attrition projections to ensure continuity and 
knowledge transfer. Performance metrics must be carefully monitored to 
anticipate and mitigate performance variances in this critical 
transition period.
    Skill mix is one of the most delicate issues that industry must 
confront. Many find it hard to understand that a contractor could be 
laying some people off while hiring others at the same time. This 
process, essential for the health and vitality of the industrial base, 
can have harsh human consequences. To some extent, retraining and 
rotational assignments can reduce the need for skill-mix job actions. 
But the transition from Shuttle to Orion, and the transition from Orion 
development to Orion operations, will necessarily entail some skill mix 
adjustments.
    We expect to deal with this challenge, in part, through effective 
community relations. We at Lockheed Martin and our industry teammates 
have established highly effective relationships with universities, 
four-year and community colleges, job counselors and State and local 
government officials. Working with local economic development 
organizations, we have forged partnerships with the University of 
Houston, the University of Texas/El Paso, the University of Central 
Florida, Brevard Community College and a host of other institutions. In 
the past, workers found themselves adrift without a lifeline when 
layoffs occurred. Today, with the help of enlightened managers, these 
community partnerships can provide a more transitional process, 
combining severance packages, retraining funds, resume preparation and 
job counseling that often return workers back to the workforce with 
little or no disruption. While it is in our interest to retain and 
retrain proven workers, we must also streamline our operations and find 
new, more efficient ways to accomplish our mission.
    Change presents both risk and opportunity. I have spoken of the 
risks of an ill-conceived transition process for human spaceflight. But 
the opportunities are well worth remembering. We must encourage a new 
generation to take up the exciting challenge of space exploration. 
Powered by new technology, imagination, and Jolt Cola, the next space 
adventurers will need our help to gain a foothold in the future. At 
this point, we are finding that recent engineering graduates are 
clamoring to work on the Orion program. This is a refreshing change, 
since a decade ago, graduates were leaving the space industry in favor 
of the exciting opportunities offered by the dot-coms. Congress can 
maintain this momentum by assuring a sustained investment in people, 
facilities and technology.
    America's most insightful philosopher, Yogi Berra, is reputed to 
have said ``Making predictions is difficult, especially about the 
future.'' While I can't predict exactly how the Vision for Space 
Exploration will turn out, let me say that I am confident in the 
feasibility of our plan, the competence of our workforce, the maturity 
of our technology and goodness of our objective. Given the necessary 
resources, a stable budget, and the continued support of the Congress, 
I have no doubt of our ultimate success.
    Thank you for the opportunity to provide my statement on this 
important topic. Lockheed Martin appreciates the Committee's interest 
in maintaining United States leadership in space exploration. We look 
forward to continuing to work closely with you on these important 
issues and I look forward to your questions.

    Mr. Li. Mr. Chairman?
    Senator Bill Nelson. Yes, Mr. Li?

               STATEMENT OF ALLEN LI, DIRECTOR, 
            ACQUISITION AND SOURCING MANAGEMENT, GAO

    Mr. Li. I recognize the importance all these changes that 
are going to be required in transitioning the workforce. In 
your discussion about the gap, I think that it needs to be said 
that providing additional money may not be the only solution 
and the only way in which, perhaps, we can minimize the gap.
    At issue is the confidence in which we know that the budget 
levels at which we have right now can bring that spacecraft 
within that time-frame. Everything has to go well. Even with 
the confidence level that we have right now, it is not certain 
that we are going to be able to hit 2014 with those budget 
numbers.
    And technology, as I indicated in my prepared statement, 
there are issues with regards to systems development that 
without proper knowledge, you just cannot hit those particular 
milestones. You cannot rush the process. The knowledge needs to 
be achieved before you can go to production. And that is pretty 
much our message.
    [The prepared statement of Mr. Li follows:]

               Prepared Statement of Allen Li, Director, 
                Acquisition and Sourcing Management, GAO
    Mr. Chairman and members of the Subcommittee:
    Thank you for inviting me to discuss the challenges faced by the 
National Aeronautics and Space Administration (NASA) in transitioning 
from the Space Shuttle to the next generation of human spaceflight 
systems. In 2004, the President established a new exploration policy--A 
Renewed Spirit of Discovery: The President's Vision for U.S. Space 
Exploration (Vision)--which calls for the retirement of the Space 
Shuttle and the development of a new family of exploration systems. 
NASA's implementation of the Vision is expected to cost hundreds of 
billions of dollars. A NASA effort of this size and scope has not been 
seen since the end of the Apollo program and the start of the Space 
Shuttle program more than 3 decades ago. The transition includes a 
massive transfer of people, hardware, and infrastructure. Although NASA 
has in place many processes, policies, procedures, and support systems 
to carry out this effort, successful transition will depend on 
thoughtful execution and effective oversight.
    The need for NASA to implement the Vision in a fiscally prudent and 
effective manner cannot be overemphasized given the competing fiscal 
demands facing the Federal Government and an already troubling funding 
profile projected for human spaceflight activities. We have issued a 
number of reports that touch on various aspects of retiring the Space 
Shuttle and transitioning its assets and people to exploration 
activities. These reports have questioned the affordability of the 
exploration program, NASA's acquisition strategy for the development of 
new space vehicles, agency-wide contract management, and workforce 
planning for current and future agency needs. We also have an ongoing 
body of work being performed at the request of the House Committee on 
Science and Technology regarding effective management of the industrial 
base, development of the Ares I Crew Launch Vehicle, and the logistical 
support needed by the International Space Station (ISS). In addition, 
at the request of the Senate Committee on Homeland Security and 
Governmental Affairs, Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of Columbia, we are 
reviewing NASA's ability to attract and retain a skilled workforce. My 
statement today will focus on the overarching challenges that NASA 
faces in transitioning from the Shuttle to the next generation of human 
spaceflight systems and will discuss our prior work on Shuttle 
workforce and development of the Orion Crew Exploration Vehicle, one of 
the agency's complex programs. I will also discuss areas where we have 
related ongoing work.
    This testimony is based on work conducted in accordance with 
generally accepted government auditing standards.
Summary
    NASA faces numerous challenges as it transitions from the Space 
Shuttle program to the next generation of human spaceflight systems. We 
have undertaken a body of work over the past 3 years that has 
highlighted two of these challenges--sustaining the Shuttle workforce 
and developing new systems. Sustaining the Shuttle workforce through 
retirement and ensuring that the workforce is available to support 
future exploration activities presents an enormous challenge for NASA. 
In 2005, we reported that NASA has made limited progress toward 
developing a detailed strategy to retain a critically skilled workforce 
for Shuttle operations. We recommended that the agency begin 
identifying the Shuttle program's future workforce needs. NASA has 
recognized that Shuttle workforce management and critical skills 
retention will be a major challenge and has taken action to address 
this issue. In 2006, we reported that NASA's acquisition strategy for 
the Orion Crew Exploration Vehicle was risky because it committed the 
Government to a long-term contract before establishing a sound business 
case. We recommended that NASA modify the current Orion Crew 
Exploration Vehicle acquisition strategy to ensure that the agency does 
not commit itself to a long-term contractual obligation prior to 
establishing a sound business case. Although it initially disagreed 
with our recommendation, NASA subsequently revised its acquisition 
strategy to address some of the concerns we raised.
    We are currently conducting a body of work relating to the 
transition, including NASA's management of the supplier base, 
development of the Crew Launch Vehicle, and logistical support of the 
Space Station. Our work to date has also identified other issues that 
NASA will face during the transition, including disposing of property 
and equipment, completing environmental clean up, managing the overall 
workforce, and integrating financial information into how NASA does 
business. Each area contains its own set of unique challenges, but they 
are all critical to NASA's overall transition effort and will require 
significant management attention.
Background
    The President's Vision for Space Exploration for NASA announced in 
2004 calls for the retirement of the Shuttle upon completion of the ISS 
and the creation of new vehicles for human spaceflight that will allow 
a return to the Moon by 2020 and voyages to Mars and points beyond. The 
Shuttle manifest currently consists of 16 flights--15 to complete 
assembly and integration of the ISS and a servicing mission \1\ to the 
Hubble Space Telescope. The first new space vehicles currently are 
targeted to begin operating no later than 2014--thereby creating a 
potential gap in U.S. human spaceflight. Congress has voiced concern 
over the United States not having continuous access to space. NASA has 
made it a priority to minimize the gap to the extent possible.
---------------------------------------------------------------------------
    \1\ The servicing mission includes installing the Cosmic Origins 
Spectrograph and Wide Field Camera 3, installing a refurbished Fine 
Guidance Sensor that replaces one degrading unit of the three already 
onboard, and an attempt will also be made to repair the Space Telescope 
Imaging Spectrograph, which stopped working in 2004.
---------------------------------------------------------------------------
    NASA has begun planning for the retirement of the Shuttle, 
scheduled for 2010, by identifying best practices in closing facilities 
and the transitioning of capabilities. Specifically, NASA has conducted 
a number of benchmarking studies of previous closures and realignment 
of large programs, including the Titan IV rocket fly-out, the F/A-18 C/
D fighter production close, and the Navy Base Realignment and Closure 
activities. The benchmarking efforts have highlighted to NASA the 
importance of having a plan, effective communication, human capital 
management, and effective program management tools. NASA's benchmarking 
effort also showed that closing and transitioning facilities, 
equipment, and people is expensive and time consuming. Among the 
lessons learned is that, historically, it has taken 3.5 years to close 
down an installation and another 3 years to complete the transition of 
the property. NASA's Office of the Inspector General has recently 
reviewed NASA's plan for the Space Shuttle transition and recommended, 
among other improvements, that the two affected space directorates 
finalize and implement the Human Space Flight Transition Plan.\2\
---------------------------------------------------------------------------
    \2\ NASA Office of Inspector General. NASA's Plan for Space Shuttle 
Transition Could Be Improved by Following Project Management 
Guidelines, IG-07-005, (Washington, D.C.: Jan. 29, 2007).
---------------------------------------------------------------------------
    Development of the Orion crew capsule, Ares I launch vehicle, and 
other exploration systems needed to implement the Vision is dependent 
on a ``go as you can afford to pay'' approach, wherein lower-priority 
efforts will be deferred, descoped, or discontinued to allow NASA to 
stay within its available budget profile. In recent testimony, the NASA 
Administrator said that the cost associated with returning the Shuttle 
to flight, continued Shuttle operations, and recent budget reductions 
had the combined effect of increasing the gap by delaying the first 
manned Orion test flight by 6 months.
    In an effort to address the gap in U.S. capability to resupply the 
Space Station following retirement of the Shuttle, NASA is investing in 
commercial space transportation services. NASA's expectation is that by 
acquiring domestic orbital transportation services it will be able to 
send cargo and, in the future, transport crews to the ISS in a cost-
effective manner. NASA refers to this as the Commercial Orbital 
Transportation Services project. The project is in the early stages of 
development. Should these commercial services prove to be unreliable or 
more costly than anticipated, NASA will need to purchase space 
transportation from its International Partners to meet obligations to 
the ISS until the new Orion spacecraft become operational.
NASA Faces Significant Challenges in Retiring the Space Shuttle Program 
        and Transitioning to Exploration Activities
    We have undertaken a substantial body of work over the past 3 years 
that has highlighted the significant challenges that NASA will face as 
it retires the Shuttle and transitions to exploration activities. One 
key challenge is sustaining the Shuttle workforce through the 
retirement of the Shuttle while ensuring that a viable workforce is 
available to support future activities. Another key challenge will be 
developing the Orion Crew Exploration Vehicle within cost, schedule, 
and performance goals. Additionally, our ongoing work has identified a 
number of other areas that may present challenges during the transition 
period. Some of these challenges include managing the supplier base to 
ensure its continued viability, developing the Ares I Crew Launch 
Vehicle, and completing and supporting the Space Station.
Maintaining a Skilled Workforce
    The Space Shuttle program's workforce is critical to the success of 
the Vision. The Shuttle workforce currently consists of approximately 
2,000 civil service and 15,000 contractor personnel, including a large 
number of engineers and scientists. In 2005, we reported that NASA had 
made limited progress toward developing a detailed strategy for 
sustaining a critically skilled Shuttle workforce to support Space 
Shuttle operations. We reported that significant delays in implementing 
a strategy to sustain the Shuttle workforce would likely lead to larger 
problems, such as funding and failure to meet NASA program schedules. 
Accordingly, we concluded that timely action to address workforce 
issues is critical given their potential impact on NASA-wide goals such 
as closing the gap in human spaceflight.
    When we performed our work several factors hampered the ability of 
the Space Shuttle program to develop a detailed long-term strategy for 
sustaining the critically skilled workforce necessary to support safe 
Space Shuttle operations through retirement. For example, at that time, 
the program's focus was on returning the Shuttle to flight, and other 
efforts such as determining workforce requirements were delayed. In our 
report, we recommended that NASA begin identifying the Space Shuttle 
program's future workforce needs based upon various future scenarios. 
Scenario planning could better enable NASA to develop strategies for 
meeting future needs. NASA concurred with our recommendation. It has 
acknowledged that Shuttle workforce management and critical skills 
retention will be a major challenge for the agency as it progresses 
toward retirement of the Space Shuttle and has taken action to address 
this issue. For example, since we made our recommendation, NASA has 
developed an agencywide strategic human capital plan and developed 
workforce analysis tools to assist it in identifying critical skills 
needs. NASA has also developed a human capital plan specifically for 
sustaining the Shuttle workforce through the retirement and, then 
transitioning the workforce.
    Additionally, in March 2006, the Senate Appropriations Subcommittee 
on Commerce, Justice, Science, and Related Agencies, and NASA asked the 
National Academy of Public Administration (NAPA) to assist the agency 
in planning for the Space Shuttle's retirement and transition to future 
exploration activities. In February 2007, a NAPA panel recommended that 
the Space Shuttle program adopt a RAND model for projecting a core 
workforce because of its emphasis on ``long-term scheduling 
projections, quantification of core competencies and proficiencies, and 
analysis of overlapping mission needs.'' \3\ Under the RAND model, an 
organization maintains a core capability for any competency that will 
be needed in the future. According to NAPA, this model is useful where 
a given expertise is not immediately required, but is likely to be 
needed in the future--in this case, for the Orion Crew Exploration 
Vehicle.
---------------------------------------------------------------------------
    \3\ NAPA also recommended that NASA adopt scenario planning into 
its agencywide workforce planning processes and use the results to 
inform decisionmaking.
---------------------------------------------------------------------------
Developing New Exploration Systems
    In July 2006, we reported that NASA's acquisition strategy for the 
Orion Crew Exploration Vehicle placed the project at risk of 
significant cost overruns, schedule delays, and performance shortfalls 
because it committed the Government to a long-term contract before 
establishing a sound business case.\4\ Our past work has shown that 
developing a sound business case--one that matches requirements to 
available and reasonably expected resources before committing to a new 
product development effort--reduces risk and increases the likelihood 
of successful outcomes.\5\ For a program to increase its chances of 
success, high levels of knowledge should be demonstrated before 
significant commitments are made (i.e., they should be following a 
knowledge-based approach to product development).
---------------------------------------------------------------------------
    \4\ GAO, NASA: Long-Term Commitment to and Investment in Space 
Exploration Program Requires More Knowledge, GAO-06-817R (Washington, 
D.C.: July 17, 2006).
    \5\ Examples of our best practices reports include GAO, Best 
Practices: Using a Knowledge-Based Approach to Improve Weapon 
Acquisition, GAO-04-386SP (Washington, D.C.: Jan. 2004); Space 
Acquisitions: Committing Prematurely to the Transformational Satellite 
Program Elevates Risks for Poor Cost, Schedule, and Performance 
Outcomes, GAO-04-71R (Washington, D.C.: Dec. 4, 2003); Best Practices: 
Capturing Design and Manufacturing Knowledge Early Improves Acquisition 
Outcomes, GAO-02-701 (Washington, D.C.: July 15, 2002); and Best 
Practices: Better Matching of Needs and Resources Will Lead to Better 
Weapon System Outcomes, GAO-01-288 (Washington, D.C.: Mar. 8, 2001).
---------------------------------------------------------------------------
    At the time of our report, NASA had yet to develop key elements of 
a sound business case, including well-defined requirements, mature 
technology, a preliminary design, and firm cost estimates that would 
support its plans for making a long-term commitment. Without such 
knowledge, NASA cannot predict with any confidence how much the program 
will cost, what technologies will or will not be available to meet 
performance expectations, and when the vehicle will be ready for use. 
NASA acknowledged that it would not have these elements in place until 
the project's Preliminary Design Review scheduled for Fiscal Year 2008. 
As a result, we recommended that the NASA Administrator modify the 
agency's acquisition strategy for the Orion Crew Exploration Vehicle to 
ensure that the agency does not commit itself, and in turn the Federal 
Government, to a long-term contractual obligation prior to establishing 
a sound business case at the project's Preliminary Design Review.
    Although it initially disagreed with our recommendation, NASA 
subsequently took steps to address some of the concerns we raised. 
Specifically, NASA modified its acquisition strategy for the Orion 
project and changed the production and sustainment portions of the 
contract into options. The agency will decide whether to exercise these 
options after the project's Critical Design Review in 2009. While these 
changes are in line with our recommendation and a step in a positive 
direction, we continue to believe NASA's acquisition strategy is risky 
because it does not fully conform to a knowledge-based acquisition 
approach. Attempting to close that gap by pushing forward development 
of the Orion Crew Exploration Vehicle without first obtaining the 
requisite knowledge at key points could very well result in the 
production of a system that not only does not meet expectations but 
ends up costing more and actually increases the gap.
    Since we last testified on this subject in September 2006,\6\ NASA 
has successfully completed its first major milestone for the Orion 
project. It has completed the Systems Requirements Review.\7\ This was 
a major step toward obtaining the information critical for making 
informed decisions. According to NASA's Orion contracting officer, NASA 
is also in the process of renegotiating the Orion contract to extend 
the Initial Operational Capability date of the system to 2014. Further, 
while this change will increase contract costs, the increase has 
already been accounted for in the Orion budget because the agency has 
been planning the change for over a year. In addition, risks associated 
with schedule, cost, and weight continue to be identified for the Orion 
project.
---------------------------------------------------------------------------
    \6\ GAO, NASA: Sound Management and Oversight Key to Addressing 
Crew Exploration Vehicle Project Risks, GAO-06-1127T (Washington, D.C.: 
Sept. 28, 2006).
    \7\ According to NASA's Systems Engineering Procedural Requirements 
(NASA Procedural Requirements NPR 7123.1), the SRR examines the 
functional and performance requirements defined for the system and the 
preliminary program or project plan and ensures that the requirements 
and the selected concept will satisfy the mission.
---------------------------------------------------------------------------
    As we have previously testified, sound project management and 
oversight will be key to addressing the risks that remain for the Orion 
project as it proceeds with its acquisition approach. To help mitigate 
the risks, we have recommended in the past that NASA have in place 
markers (i.e., criteria) to assist decisionmakers in their monitoring 
of the project at key junctures in the development process. Such 
markers are needed to provide assurance that projects are proceeding 
with and decisions are being based upon the appropriate level of 
knowledge and can help to lessen project risks. NASA has recently 
issued its updated program and project management requirements for 
flight systems in response to our recommendation. Changes to the 
policy,\8\ including the incorporation of key decision points 
throughout the project development life-cycle, should provide an avenue 
for decisionmakers to reassess project decisions at key points in the 
development process to ensure that continued investment is appropriate. 
However, it should be noted that implementation of the policy in a 
disciplined manner will ensure success, not the existence of the policy 
itself.
---------------------------------------------------------------------------
    \8\ NASA Procedural Requirements (NPR) 7120.5D establishes the 
requirements by which NASA will formulate and implement spaceflight 
programs and projects. NPR 7120.5D became effective on March 6, 2007, 
and supersedes the previous version of the document, NPR 7120.5C, for 
spaceflight programs and projects.
---------------------------------------------------------------------------
    Currently, we are evaluating the development of NASA's latest 
human-rated launch vehicle--the Ares I Crew Launch Vehicle. When 
completed, the Ares I vehicle will be capable of delivering the Orion 
spacecraft to low-Earth orbit for ISS missions and for exploration 
missions to the Moon. As initially conceived by NASA in the Exploration 
Systems Architecture Study completed in 2005, the Ares I design would 
rely on the existing solid rocket boosters and main engines from the 
Space Shuttle as major components of its two stages. The current design 
for the Ares I, however, diverges from the initial design set forth in 
the architecture study and now includes elements from the Apollo-era 
Saturn V launch vehicle. Current plans are for Ares I to evolve the 
solid rocket boosters from the Space Shuttle program from four segments 
to five segments and to build a new upper-stage engine based on an 
original Saturn V design. NASA maintains that these changes are 
necessary to increase commonality between the Ares I and the planned 
Ares V cargo launch vehicle and to reduce overall development costs for 
implementing the Vision. As NASA's design for the Ares I continues to 
evolve, careful planning and coordination between the Orion and Ares I 
development teams will be critical to ensuring that current 
developmental efforts result in hardware that satisfies the future 
requirements of these systems. Subsequently, any development problems 
on either of these systems could result in increasing the gap.
    Our ongoing work is aimed at assessing whether NASA's acquisition 
strategy for Ares I reflects the effect of changes to the Ares I design 
incorporated since the Ares I was first conceived in the Exploration 
Systems Architecture Study as a Shuttle-derived alternative. Also, we 
are evaluating the extent to which NASA's Ares I acquisition strategy 
incorporates knowledge-based concepts designed to minimize technical 
and programmatic risk.
    The Orion Crew Exploration Vehicle and the Ares I Crew Launch 
Vehicle are the first in a series of new systems to be developed in 
support of exploration activities. NASA's careful management of these 
projects must preclude historical instances of cost and schedule 
growth. Indeed, while NASA has had many successes in the exploration of 
space, such as landing the Pathfinder and Exploration Rovers on Mars, 
NASA has also experienced its share of unsuccessful missions, 
unforeseen cost overruns, and difficulty bringing a number of projects 
to completion. For example, NASA has made several attempts to build a 
second generation of reusable human spaceflight vehicle to replace the 
Space Shuttle, such as the National Aero-Space Plane, the X-33 and X-
34, and the Space Launch Initiative, that never accomplished its 
objective of fielding a new reusable space vehicle. We estimate that 
these unsuccessful development efforts have cost approximately $4.8 
billion since the 1980s. The high cost of these unsuccessful efforts 
and the potential costs of implementing the Vision make it important 
that NASA achieve success in developing new systems for its new 
exploration program.
Managing the Supplier Base Throughout Retirement and Transition
    NASA's plans to retire the Shuttle have the potential to greatly 
impact the supplier base that has been supporting that program for the 
last several decades, as well as mold the future supplier base needed 
for its exploration program. Over the next few years, NASA will be 
making decisions about its supplier base needs, including which 
suppliers will be required for the remainder of the Space Shuttle 
program, which will no longer be required for the program, and which 
will be needed to support exploration efforts. One concern is that NASA 
will be unable to sustain suppliers necessary to support the 
exploration program during the period between the Shuttle's retirement 
and resumption of human spaceflight. Also of concern is that those 
suppliers determined by NASA as not needed for the exploration program 
will prematurely end their services, thus jeopardizing the safe and 
efficient completion of Shuttle activities. In addition, issues such as 
obsolescence--already being experienced by some Shuttle projects--could 
have an impact on the exploration program given the planned use of 
heritage hardware for some components of the Constellation projects. In 
an attempt to address these potential issues, NASA has been developing 
and implementing plans and processes to manage the transition of its 
supplier base.
    We are in the process of assessing how well NASA is positioning 
itself to effectively manage its supplier base to ensure both 
sustainment of the Space Shuttle program through its scheduled 
retirement in 2010 and successful transition to planned exploration 
activities.
Providing Logistical Support to the International Space Station
    The Shuttle is uniquely suited for transporting crew and cargo to 
and from the ISS. However, with scheduled retirement of the Shuttle in 
2010, NASA and its International Partners will be challenged to fully 
support ISS operations until 2014, when the new crew exploration 
vehicle is scheduled to come on line. To fill this gap, NASA plans to 
rely on its International Partners and commercial services to provide 
ISS logistics and crew rotation.
    Two recent studies have raised serious concerns about whether 
future ISS operations can be continuously supported. A 2006 report by 
the National Research Council noted that the capabilities, schedules, 
and funding requirements for NASA, International Partners, and 
commercial cargo and crew vehicles were not yet firm enough to give the 
panel confidence that ISS exploration mission objectives have a high 
likelihood of being fulfilled.\9\ A February 2007 report by the 
International Space Station Independent Safety Task Force, which was 
required by the NASA Authorization Act of 2005,\10\ noted that the 
transition from the Space Shuttle to post-Shuttle systems for 
logistical support to the ISS will require careful planning and phasing 
of new capabilities. Specifically, care must be taken to ensure 
adequate logistics and spares are provided to maintain a viable 
station.\11\ The task force report went on to say that if a commitment 
is made to an emerging logistics delivery capability and the capability 
does not materialize, then logistical support to the ISS could be lost 
for some time, seriously decreasing the utility of the Space Station 
and possibly resulting in its abandonment.
---------------------------------------------------------------------------
    \9\ Review of NASA Plans for the International Space Station, 
National Research Council, Washington, D.C., 2006.
    \10\ Pub. L. 109-155,  802, 804 (2005).
    \11\ Final Report of the International Space Station Independent 
Safety Task Force, February 2007.
---------------------------------------------------------------------------
    We are reviewing NASA's plans for meeting ISS logistics and 
maintenance requirements after the Shuttle retires, identifying the 
main risks to meeting ISS logistics and maintenance requirements, and 
assessing NASA's plans for addressing the risks.
Disposing of Property and Equipment
    NASA has not developed a comprehensive cost estimate for 
transitioning or disposing of Space Shuttle program facilities and 
equipment. This poses a financial risk to the agency. As NASA executes 
the remaining missions needed to complete the assembly of and provide 
support for the ISS, it will simultaneously begin the process of 
disposing of Shuttle facilities and hardware that the Space Shuttle 
program will no longer need, or, transitioning such facilities and 
hardware to the other NASA programs.\12\ As the ninth largest Federal 
Government property holder, NASA owns more than 100,000 acres, as well 
as over 3,000 buildings and 3,000 other structures totaling over 44 
million square feet. Currently, the Space Shuttle program uses 654 
facilities valued in excess of $5 billion. The Space Shuttle program 
also manages equipment dispersed across government and its contractors 
valued at more than $12 billion. NASA is in the process of evaluating 
its Space Shuttle program facilities and equipment requirements and 
identifying existing facilities and equipment that will no longer be 
needed to support Shuttle operations. Constellation and other NASA 
programs will determine whether they need any of the facilities or 
equipment released by the Space Shuttle program. According to NASA 
officials, assessments currently project that only 70 to 80 of the 
existing facilities are needed to support the development or operation 
of future exploration systems. In cases where facilities or equipment 
are no longer required by the Space Shuttle program, no other use is 
identified, or it is selected for disposal, it will transition to the 
resident NASA field center for disposition.
---------------------------------------------------------------------------
    \12\ Facilities refers to real property such as land, buildings and 
other structures that cannot be readily moved, and equipment refers to 
personal property that could be transported elsewhere with relative 
ease.
---------------------------------------------------------------------------
    It is worth noting that even before the retirement of the Shuttle, 
over 10 percent of NASA's facilities are underutilized or not utilized 
at all. One option NASA has is to lease underutilized facilities in 
exchange for cash and/or in-kind consideration, such as improvement of 
NASA's facilities or the provision of services to NASA. As directed by 
the NASA Authorization Act of 2005, we recently reported on NASA's 
Enhanced Use-Leasing Program.\13\ Congress authorized NASA to employ 
enhanced-use leasing at two demonstration centers. This allowed the 
agency to retain the proceeds from leasing out underutilized real 
property and to accept in-kind consideration in lieu of cash for rent. 
The Act allows NASA to deposit the net proceeds (i.e., net of leasing 
costs) in a no-year capital account to use later for maintenance, 
capital revitalization, and improvement of the facilities, albeit only 
at the demonstration centers--Ames Research Center and Kennedy Space 
Center. However, unlike other agencies with enhanced-use leasing 
authority, NASA is not authorized to lease back the property during the 
term of the lease. Furthermore, we found that the agency does not have 
adequate controls in place to ensure accountability and transparency 
and to protect the Government. We recommended that the NASA 
Administrator develop an agency-wide enhanced use leasing policy that 
establishes controls and processes to ensure accountability and protect 
the Government's interests including developing mechanisms to keep the 
Congress fully informed of the agency's enhanced use leasing activity. 
NASA concurred with our recommendations. After not receiving additional 
authority in the NASA Authorization Act of 2005, the agency is again 
requesting that the Congress extend enhanced use leasing authority to 
at least six NASA centers. NASA currently has other leasing 
authorities, but they require the agency to return to the U.S. Treasury 
any amounts exceeding cost. Further, NASA has indicated that it is 
preparing a package of legislative and administrative tools to help in 
the transition from the Space Shuttle program to the Constellation 
program. For example, in addition to requesting authority for increased 
use of enhanced use leasing, a NASA official informed us that one tool 
the agency might consider pursuing is the ability to keep the funds 
within NASA from the sale of facilities and equipment, rather than 
returning such funds to the Treasury.
---------------------------------------------------------------------------
    \13\ Pub. L. 109-155,  710 (2005) and GAO, NASA: Enhanced Use 
Leasing Program Needs Additional Controls, GAO-07-306R (Washington, 
D.C.: Mar. 1, 2007).
---------------------------------------------------------------------------
Completing Environmental Clean Up
    NASA does not have a comprehensive estimate of the environmental 
clean up costs associated with the transition and disposal of Space 
Shuttle program facilities and equipment. The agency must comply with 
Federal and state environmental laws and regulations, such as the 
National Environmental Policy Act of 1969, as amended,\14\ the 
Resource, Conservation, and Recovery Act of 1976, as amended,\15\ and 
the Comprehensive Environmental Response, Compensation, and Liability 
Act of 1980, as amended,\16\ in identifying and mitigating the 
environmental concerns. Although NASA has an approach for identifying 
environmental risks, in our report on major challenges facing the 
Nation in the 21st century, we pointed out that progress in cleaning up 
sites frequently does not meet expected time-frames and the costs 
dramatically exceed available funding levels.\17\ For example, it cost 
the Titan IV program approximately $300 million over 6 years on 
cleaning facilities, equipment, and tools. At this time, the extent of 
the Space Shuttle program's environmental liabilities is not yet fully 
known. Paying for this liability may require a significant future 
outflow of funds at the same time that NASA will be facing many other 
competing demands for its limited dollars, such as development of 
Orion, Ares I, and other exploration projects.
---------------------------------------------------------------------------
    \14\ 42 U.S.C.  4321, et seq.
    \15\ 42 U.S.C.  6901, et seq.
    \16\ 42 U.S.C.  9601, et seq.
    \17\ GAO, 21st Century Challenges: Reexamining the Base of the 
Federal Government, GAO-05-325SP (Washington, D.C.: February 2005).
---------------------------------------------------------------------------
Positioning the Science, Engineering, and Technical Workforce
    As it moves away from flying the Shuttle, the NASA acknowledges 
that it must realign where necessary and plan for a workforce that will 
not be quite as large. NASA projects fewer resources will be required 
for operating and sustaining hardware, especially during vehicle 
processing and launch operations. The reduction in reusability of 
future space systems will also result in less refurbishing. In 
addition, as new space systems are designed, emphasis will shift to 
personnel with skills in systems development and engineering, program 
management and systems integration. Unfortunately, these skills will be 
in high demand at a time when other Federal agencies and the private 
sector have similar needs.
    NASA projects that by Fiscal Year 2012 the total number of 
personnel needed to meet its strategic goals will decrease from 18,100 
to 17,000. The agency is taking advantage of the flexibilities outlined 
in the NASA Flexibility Act of 2004 \18\ to attract highly qualified 
candidates, however, continued buy-outs and the threat of a reduction 
in force have created a feeling of instability among the science and 
engineering workforce. NASA's senior leaders recognize the need for an 
effective workforce strategy in achieving mission success. NASA has a 
strategic human capital plan, but more work is needed in workforce 
planning and deployment. In addition, NASA's transition to full cost 
accounting in Fiscal Year 2004 resulted in a number of its centers 
experiencing less than Full Time Equivalent utilization, a situation 
referred to by NASA as ``uncovered capacity.'' The Administrator has 
committed to operating and maintaining 10 centers and transferred work 
to those centers with identified uncovered capacity.
---------------------------------------------------------------------------
    \18\ Pub. L. 108-201.
---------------------------------------------------------------------------
    We are examining whether several Federal agencies, including NASA, 
are taking sufficient steps to address their workforce challenges in a 
timely and comprehensive manner, while sustaining focus on its mission 
and programmatic goals. Specifically, we are assessing the extent to 
which NASA's human capital framework is aligned with its strategic 
mission and programmatic goals; whether NASA is effectively recruiting, 
developing, and retaining critically skilled staff; and what internal 
or external challenges NASA faces in achieving its workforce needs. As 
noted earlier, NAPA recently completed a study that made 
recommendations to NASA on how to achieve a flexible and scalable 
workforce by integrating its acquisition and workforce planning 
processes.
Transforming the Way Financial Information Is Used
    Since 1990, GAO has designated NASA's contract management as high 
risk principally because NASA has lacked a modern financial management 
system that can provide accurate and reliable information on contract 
spending and has placed little emphasis on product performance, cost 
controls, and program outcomes.\19\ NASA has made progress toward 
implementing disciplined project management processes, but it has made 
only limited progress in certain areas such as reengineering NASA's 
contractor cost reporting process. As we reported, the current 
Integrated Enterprise Management Program does not provide the cost 
information that program managers and cost estimators need to develop 
credible estimates and compare budgeted and actual cost with the work 
performed on the contract. NASA plans to spend billions of dollars to 
develop a number of new capabilities, supporting technologies, and 
facilities that are critical to enabling space exploration missions. 
The development of such capabilities will be largely dependent on NASA 
contractors--on which NASA spends about 85 percent of its annual 
budget. Because of such a large reliance on contractors to achieve its 
mission, it is imperative that NASA be able to track costs and the 
means to integrate financial decisionmaking with scientific and 
technical leadership by providing decisionmakers accurate information. 
To its credit, NASA is working to improve business processes and 
integrating disparate systems in order to improve efficiencies, reduce 
redundant systems, and improve business information available to the 
acquisition community and mission support organizations. However, more 
effort will be needed to make the cultural transformation a reality.
---------------------------------------------------------------------------
    \19\GAO, High-Risk Series: An Update, GAO-07-310 (Washington, D.C.: 
Jan. 2007).
---------------------------------------------------------------------------
Concluding Observations
    The Vision for Space Exploration puts NASA on a bold new mission. 
Implementing the Vision over the coming decades will require hundreds 
of billions of dollars and a sustained commitment from multiple 
Administrations and Congresses over the length of the program. How well 
NASA overcomes the transition challenges that we and others have 
identified will not only have an effect on NASA's ability to 
effectively manage the gap in the U.S. human access to space, but also 
will affect the agency's ability to secure a sound foundation of 
support for the President's space exploration policy. Consequently, it 
is incumbent upon NASA to ensure that these challenges are being 
addressed in a way that establishes accountability and transparency to 
the effort.
    Mr. Chairman and members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Senator Bill Nelson. I am being advised by the people who 
should know, Mr. Gerstenmaier's outfit, that with that funding 
profile they can hit those milestones. Are you saying something 
different?
    Mr. Li. What I am saying is that the basis on which they 
have made that particular statement is based upon a confidence 
level of 65 percent. That is what the Administrator indicated 
about 2 weeks ago.
    What that means is that there is only a certainty of 65 
percent. What I believe this particular Subcommittee and the 
rest of the Congress, perhaps, can ask NASA, is to follow their 
own rules, and say if you went to 70 percent, which many of 
their programs are at, if you had to achieve 70 percent 
confidence level, what is that delta in terms of dollars that 
are needed? And then the Congress would be better informed as 
to what those impacts would be.
    Senator Bill Nelson. OK. We will look at that. Would 
somebody tell me how many minutes I have left to vote? Sorry 
for the interruption, but this is a part of our lives. And we 
have not figured out how to clone ourselves yet to be in two 
places at once.
    Mr. Dittemore, you are doing the rockets on which this 
spacecraft is going to sit. Give us your perspective on this.

         STATEMENT OF RONALD D. DITTEMORE, PRESIDENT, 
                    ATK LAUNCH SYSTEMS GROUP

    Mr. Dittemore. I think NASA has made some extremely smart 
moves. Number one, they have gone a long way toward mitigating 
many of our technical, our skills, our processing, and even our 
costs risk by utilizing proven technologies that already exist.
    What we are talking about now is going the extra step to 
make sure we do not lose a skill set that may be perishable 
over an extended gap. I think that these early moves to utilize 
that proven technology will pay benefits long into the future, 
because they are retaining skills, precious skills that would 
otherwise be off the program. And they are doing that today. So 
I think that is a great first step.
    I totally believe that we need to minimize the gap. Any 
extension of the gap is only going to exacerbate a transition 
issue. And so I am going to urge you and everybody else that we 
really need to provide the necessary resources, stable 
resources, so that NASA and industry can join together and put 
a plan together that is executable and provides for the safety 
of the astronauts, as we fly-out the Shuttle program, and as we 
transition to the next program.
    So I think we are starting out on a very good path. Now we 
are talking about how do we continue that and execute it to the 
finish line.
    [The prepared statement of Mr. Dittemore follows:]

         Prepared Statement of Ronald D. Dittemore, President, 
                        ATK Launch Systems Group
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear today to discuss transitioning to a next 
generation human spaceflight system.
    I, along with many of my colleagues, am a product of the first 
great vision to land a man on the Moon and return safely to Earth. The 
excitement of Mercury, Gemini, and Apollo captivated our attention and 
stirred our imaginations. As a direct result of this excitement, 
Aerospace engineering became my particular field of study and I was 
extremely fortunate to have a tremendous career with NASA for over 26 
years.
    I am pleased to address the issue of transition from the Space 
Shuttle to the new Ares/Orion launch system. It is an important issue 
facing us today as we approach a crossroads where the transition 
between space transportation systems will be critical in our ability to 
maintain skills and experience while training a new generation of space 
scientists, engineers, and processing workforce.
    But before I address the transition from the Space Shuttle to the 
new Ares launch transportation system, it is worth reviewing previous 
experience with transitions of this magnitude, particularly the 
transition from the Apollo program and Saturn V launch vehicle to the 
Space Shuttle transportation system. After the Apollo Moon landings 
ended in 1972, several small transitions, or ``soft landings'' 
occurred. Significant workforce reductions occurred both within the 
NASA civil service workforce and private industry. Follow-on programs 
did not need the levels of workforce that were required during the 
buildup to support the Moon landings of the late 1960s and early 1970s. 
A leaner NASA and a leaner industry were the result.
    During this transitional phase, NASA developed and operated its 
first Space Station, Skylab. And after Skylab's three missions were 
completed an international cooperative mission between the United 
States and Russia, Apollo/Soyuz, was conducted. These missions 
constituted ``soft landings'' where critical skills and experience were 
retained as workforce reductions and attrition occurred.
    Fast-forwarding 30 years to 2007, the lessons of the Apollo/Shuttle 
transition are applicable today as NASA transitions from Shuttle to 
Ares I/Orion. Actions taken have already resulted in several ``soft 
landings'' where critical skills and experience are being directly 
applied to new program development. Many of the technical, skill, 
processing, and cost challenges have been mitigated through the 
utilization of proven Shuttle derived capabilities for the foundation 
of the Ares I launch vehicle. Critical industry skill and experience 
are being retained in the development of the Ares I systems.
    Additionally, an Ares I test flight program is being developed that 
bridges the gap between the last Shuttle flight and the start of Ares I 
operational capability, utilizing the talents across industry and 
NASA's field centers. These test flights provide an avenue of 
transition where critical skills and experience are captured and 
retained.
    And just as the Skylab Space Station provided a bridge between 
Apollo and Shuttle for the retention of critical skills, I believe that 
the operation of the International Space Station through at least the 
middle of the next decade is necessary to provide a similar bridge 
between the Space Shuttle and future lunar missions.
    But there is no doubt that the transition from the 25-plus year 
Space Shuttle program to the new Ares I transportation system will be a 
significant challenge. Resources must be allocated to allow for a safe 
and executable transition, providing for the safety of our astronauts 
as the Shuttle program comes to a close and enabling the execution of 
these ``soft landings'' as I have described. Increasing the gap between 
Shuttle and Ares I exacerbates the transition. The gap, in my opinion, 
should be minimized and resources allocated to ensure this occurs.
    As industry, small and large, across this country step up to the 
challenge, we have the opportunity to drive down cost and to realign 
contracts to be much more efficient. And although this transition 
period will be challenging, it also presents a gateway to new 
opportunity as the end-state vision associated with Ares I begins to 
evolve. People will change badges; people will step up to the challenge 
of being retrained; and people will aggressively seek new positions of 
growth provided by an expanding vision.
    With a safer, more economical launch system come increased 
opportunities. Instead of servicing only one program, the Kennedy Space 
Center has the potential to be the spaceport of the future for a 
variety of missions--Ares I NASA missions to low-Earth orbit, potential 
Ares I commercial applications, and providing services and 
infrastructure for a growing Commercial Orbital Transportation System 
(COTS) that NASA is facilitating. The evolution of the space industry 
is continuing and Ares I opens up potential new opportunities for 
industry to develop. The opportunity exists for the transition of 
workforce skills and experience at the KSC to support a broader KSC 
role.
    It is also evident that the KSC launch site is becoming an 
extension of the manufacturing centers where Ares I launch vehicle 
element refurbishment and assembly and Orion spacecraft assembly are 
major activities in addition to integrated vehicle processing and 
launch/recovery operations. The KSC workforce will have opportunities 
to transition from Shuttle contracts to Ares I contracts to support 
these Ares I/Orion assembly activities.
    As we continue to pursue The Vision for Space Exploration and 
transition to a new space transportation system, a new generation of 
scientists and engineers will be inspired, as was my generation 30 
years ago. The transition that I have addressed will certainly be a 
challenge, but it also represents significant opportunities for the 
future. With the necessary resources, I am confident that NASA and 
industry will rise to the challenge and safely guide us to the next 
great adventure.

    Senator Bill Nelson. I am going to give you a list of 
Senators I want you to talk to.
    [Laughter.]
    Senator Bill Nelson. Mr. Walker, of course your folks are 
the greatest launch team in the world, without exception. I am 
sure there are some stirrings down there at home. Folks are 
uncertain.

        STATEMENT OF JOHNNY WALKER, DIRECTING BUSINESS 
       REPRESENTATIVE, DISTRICT LODGE 166, INTERNATIONAL 
        ASSOCIATION OF MACHINISTS AND AEROSPACE WORKERS

    Mr. Walker. I cannot do anything but reflect what these 
gentlemen are telling you here today, that we--we lived through 
the Apollo--end of the Apollo program, and waited for the 
Shuttle program to come along. And it was pretty devastating.
    Certainly, the launch team is nervous. All the folks from 
the Cape are nervous just wondering what is going to be there 
for the future.
    I am just--just in reflecting and saying, to us, it is to 
push along today the best we possibly can, fund it, fund the 
program, so that we do not have this break in the team concept, 
and not make the mistakes that we made in the past.
    But certainly, I think my main mission here today was to 
tell you that the workforce is nervous. And I would love to 
see, actually, that we share a little bit more information with 
the launch team and with the folks there at the Cape. A little 
more than what we have been.
    I think, certainly, if they know things like this are going 
on, that it will be better for morale. Knowing that we are 
trying to save and trying to utilize the stuff that we 
currently have, and reflecting on that.
    We are going to be emptying out facilities when the--come 
the end of this program. This great program that we have been a 
part of. And I would love to see this try to bring in the work 
to maintain this workforce that we currently have here.
    [The prepared statement of Mr. Walker follows:]

Prepared Statement of Johnny Walker, Directing Business Representative, 
    District Lodge 166, International Association of Machinists and 
                           Aerospace Workers
    Thank you, Mr. Chairman, and members of this subcommittee for the 
opportunity to testify before you today. My name is Johnny Walker and I 
serve as Directing Business Representative for District Lodge 166 of 
the International Association of Machinists and Aerospace Workers. As 
the largest union at the Kennedy Space Center, we represent over 2,500 
hourly men and women who play a critical role in preparing, launching, 
and maintaining our Nation's only human launch vehicle, the Space 
Shuttle. I come before you today to give voice to the growing concerns 
of our members and the communities they live in regarding the extended 
gap between the end of the Space Shuttle program and the beginning of 
the new Ares/Orion manned vehicle systems.
    Our members have been involved with the space program at Cape 
Canaveral since 1955 and have participated in every human launch event. 
While contractors have come and gone, we have stayed, providing a 
knowledge-base and skill continuity critical to the safety and success 
of our Nation's space program.
    IAM members function as launch operation technicians, mission 
schedulers, inspectors, ground support technicians, safety support 
specialists, test conductor operators, air traffic control specialists, 
and logistic specialists. Additionally, we are plumbers, pipe fitters, 
sheet metal workers, welders, industrial electricians, crane operators, 
as well as heavy equipment, crawler, and support services mechanics and 
operators. Other support occupations include power generator equipment 
operators, air conditioning mechanics, linemen, alarm technicians, 
asbestos abatement/insulators, and excavation permit inspectors. Many 
of these jobs require a journeyman's license or other certification and 
are not easily replaceable.
    Last March, NASA Administrator Michael Griffin, in testimony before 
the House Appropriations Committee, stated that he recalled ``. . . the 
damage done to our Nation's space program by the loss of critical 
expertise in human spaceflight following the cessation of Apollo and 
then 6 years later the effort to recreate it during the Shuttle era.'' 
I too recall that time: the layoffs, the disruption in human lives, and 
the devastating impact on our communities. For some it meant losing 
their homes. For others it meant picking up and moving away in search 
of dependable work. For those of us who remained, moral suffered as our 
co-workers, friends, and neighbors left.
    When the Shuttle program finally began to move forward, many of the 
skilled workers, both hourly and salaried, who possessed intimate 
knowledge of key operations, were gone. NASA contractors were then 
forced to recruit nationwide and bring in new people unfamiliar with 
NASA systems. This was an expensive and time consuming process.
    I fear now that NASA will repeat the mistakes of the past. The 
cessation of the Titan program in 2005 resulted in the layoff of 250 
highly skilled employees familiar with complex missile systems. With 
little hope of future employment at the Kennedy Space Center most left 
the Cape in search of new work--a possible harbinger of things to come 
in 2010 when the Shuttle program ends. If nothing changes, I believe 
that the potential impact from a gap in programs will be even worse 
than it was in the 1970s because today's workers at the Cape have had 
more training and possess higher skill levels than those from a 
generation ago.
    NASA has indicated that the staffing levels for the Ares/Orion 
systems will be dramatically lower than are currently needed for the 
Space Shuttle program. Employment at the Kennedy Space Center for the 
Ares/Orion launch systems is projected to drop to approximately 9,500 
from the present level of 15,000 employees. However, if the funding 
levels remain as currently projected, employment levels could be 
significantly lower. Given these dire scenarios, NASA must answer some 
critical questions:

  <bullet> What will NASA do for the displaced workers? Will they be 
        offered some form of transition assistance? What type of 
        severance package will they be offered? How long will health 
        care benefits be covered?

  <bullet> What is the plan for the workforce that remains? What will 
        be the schedule for the new work that will be needed for the 
        new Ares/Orion manned vehicle systems? What will be the skill 
        mix for that new work? What new training will be required? How 
        will NASA communicate these changes?

  <bullet> Perhaps most importantly, what is being done to bring in new 
        work to prevent layoffs and preserve the skill base at the 
        Kennedy Space Center? For example, why not utilize the existing 
        personnel and facilities for the manufacture and assembly of 
        the Ares/Orion launch vehicles?

    The GAO, in a May 2005 report on workforce issues related to the 
retirement of the Space Shuttle, stated that NASA should follow what it 
calls a ``human capital management approach'' in planning the 
transition to the Ares/Orion systems. While we concur with the report's 
focus on workforce issues, we must strongly insist that this planning 
process include not only senior NASA and contractor management, but 
also the participation of front-line hourly and salaried workers and 
their union representatives. Working together we have a much greater 
chance of achieving a beneficial transition for workers, our 
communities, the contractors, and NASA. Such a successful transition 
will be key to accomplishing NASA's critical mission.
    As China doubles its investment in space exploration, deploys 
satellite destroying weaponry, and makes plans for a manned lunar 
expedition, we cannot, as a nation, pretend that we can get by on the 
cheap with a nickel and dime space effort. It is both a matter of our 
national defense and global technological leadership that we provide 
the necessary funds for a vital and productive space program. To that 
end, we must first begin by fully funding the NASA Authorization Act of 
2005 and by making up the funding gap that resulted from the Continuing 
Resolution for Fiscal Year 2007. It is my understanding that this will 
require approximately $1.7 billion, slightly less than what we are 
spending per week in Iraq.
    From the end of the Space Shuttle program in 2010 until the launch 
of the first manned Orion vehicle, currently projected to be in 2015, 
the United States will be without a human launch vehicle. For the 
Nation that first put a man on the Moon to be at the mercy and whims of 
foreign nations for its human space travel needs is simply 
unacceptable. We must do better and find the necessary funds to move up 
the Orion launch date. This will greatly enhance our ability to 
stabilize the workforce and maintain the critical skill base at the 
Kennedy Space Center.
    Mr. Chairman, I know that I speak for all of the dedicated men and 
women at the Cape, both hourly and salaried, in thanking you, the 
Ranking Member, and the members of this subcommittee from both sides of 
the aisle for your tireless efforts to preserve the preeminence of our 
Nation's space program.
    I thank you for this opportunity to testify today and look forward 
to your questions.

    Senator Bill Nelson. I want you to know, Mr. Walker, Dr. 
Griffin, who I think is doing a very good job, I feel that he 
is personally committed, and I think he would tell you this 
himself. Obviously there is going to be some loss of 
employment, because if you are not launching humans, and you 
are not launching the vehicle, you need less in terms of 
workforce.
    You can minimize it not only with things that we just 
talked about, such as the assembly team, but you can minimize 
it by bringing other projects into the Kennedy Space Center in 
order to keep, what Mr. McCulley was talking about, a lot of 
those skill sets tuned up and working so that they are not 
dispersed and gone. I believe I have that commitment from him. 
I think he would share that with any of you.
    What I am going to do is recess the Committee. I am going 
to run and vote. And I will get back here just as quick as I 
can and we will resume. Thank you very much.
    [Recess.]
    Senator Bill Nelson. Please pardon the interruption, but 
there was nothing we could do about it. Whenever they say it is 
a 10-minute vote, well, of course, that is always a 15- or 20-
minute vote. So anyway, we are back.
    We had gone through some preliminaries. Is there anything 
anybody wants to offer for the record? Of course, each of your 
statements will be printed in the record. So we have the value 
of that. If any of you have any statements you would like to 
make, I want to give you the opportunity. Otherwise, we will 
just get right on into some questions.
    Mr. Gerstenmaier, bring us up to date on the status of 
Atlantis and STS-117. And how that is going to affect the rest 
of the manifest.
    Mr. Gerstenmaier. OK. Right now, as we speak, we have a 
team in Florida that is busily repairing the tank. And I can 
tell you that this is probably one of the best activities I 
have ever seen in the human spaceflight area.
    We have Lockheed Martin, who manufactures the tank for us 
and we have United Space Alliance, who does the processing at 
the Cape. And those two contractor organizations are working 
together better than I have ever seen two contractor 
organizations work.
    The teaming, and the spirit, and the cooperation of the 
folks that are working on this tank is phenomenal. They are 
passing engineering back and forth. They are making progress 
every day on repairing the tank. And they are doing just a 
great job.
    They have passed data back and forth. They are actually 
mocking up the spray area in New Orleans, so the technicians 
can practice spraying in New Orleans. And they will actually go 
spray some foam on the tank in Florida then to finish it up and 
complete. We still do not know which tank we will use for STS-
117. We are letting the work kind of drive the activity. We are 
not picking a launch date and then forcing the work to fit into 
that launch date. We are going to let the work drive the 
schedule to where it needs to be.
    If we need to, we can switch the external tanks. The new 
tank will be shipping from New Orleans either on Sunday or 
Monday, or this coming Sunday or next Monday. It will be in 
Florida several days earlier than we had planned. And, again, 
the Lockheed team has done a great job of getting that tank 
ready.
    We will make a decision around April 10, like we have 
talked about before, which tank we will use. We can still 
potentially make the May launch window, if we use this tank. If 
we do not, we will be in the June time-frame.
    Either one of those launch windows allows us to fly-out the 
remaining flights needed for Space Station assembly. It turns 
out, by the end of 2008, or the first part of 2009, the ripple 
of this delay will have settled out, and we will be back on 
track again. So we will still have the same margin we have 
today to complete any assembly flights. So we do not see this 
as a big impact to us downstream.
    So, again, progress is going extremely well. It is a 
tribute to this workforce that they understand the work that 
needs to be done. The engineering staff. The technicians. It is 
just phenomenal. And that is the same workforce we want to use 
during this transition period.
    Senator Bill Nelson. Will there be some slippage for the 
rest of 2007?
    Mr. Gerstenmaier. Yes. There will be some slippage through 
the rest of 2007. And a little bit into 2008. And then by kind 
of the end of 2008, first part of 2009, that slippage will 
pretty much have damped out. So you will see the flights move a 
little bit.
    We have a manifest option out there that moves a whole 
bunch of flights around. That is just a planning manifest. So 
if you see that on a website somewhere that somebody has 
posted, it looks like everything in the world has moved. It 
really has not. This is a planning exercise that we put out to 
the team to take a look at, to try to find an optimum way to go 
through this period.
    It is a pretty complicated assembly sequence, because it 
not only relies on the Shuttle being ready to fly, but we need 
to look at what activity needs to be completed onboard the 
Space Station. And sometimes the Space Station activities pace 
the Shuttle flights.
    So in some cases, the Shuttle may be ready to fly before 
the Space Station is ready to receive it. So it is a pretty 
integrated schedule scenario that is more complicated than we 
have had in the past. So we put this planning manifest out for 
folks to look at. So it looks like we are maybe more unstable 
than we really are, but to treat that as just a planning 
manifest, and we will have around April 10 or so, maybe April 
15, we will have the plan laid out for the remainder of the 
year.
    Senator Bill Nelson. To Mr. McCulley and Mr. Dittemore, how 
are you going to ensure that you have an experienced and 
sufficient staff on the Shuttle program, while at the same 
time, starting to shift over? And, how do you keep them from 
being distracted from the new program?
    Mr. Dittemore. It might be a little easier for me than it 
is for Mike. As I mentioned to you earlier, Senator, our basis 
for the first stage of the Ares I launch vehicle is basically 
the reusable solid rocket motors that we build today for 
Shuttle. Instead of a four segment, it is going to be a five 
segment motor.
    Those decisions by NASA a year or a year-and-a-half ago 
really kicked off the transition, from my viewpoint. Much of 
our workforce that manufactures these solid rocket motors will 
be used for both the four segment and Shuttle motor transition 
over into the five segment motor for Ares.
    In fact, we believe we will save NASA a significant amount 
of money because of the synergy that will exist and the synergy 
opportunities between the two programs. So from a manufacturing 
standpoint, we have laid in plans right now for our suppliers 
and our direct labor to transition over into the Ares I launch 
vehicle.
    I also think that as NASA develops their test flight 
program at the end of this decade, that test flight program is 
planned to bridge the last Shuttle flight, all the way to the 
first operational flight for the Ares I launch vehicle.
    And because of that test flight program, we also believe 
that we will retain significant numbers of skill-sets that can 
be applied, not only at the home plant for manufacturing, but 
also at the Cape, for assembly and launch and recovery 
operations.
    So I think those ingredients or those soft-landing types of 
activities that NASA has put in place help us tremendously in 
retaining our skills.
    Mr. McCulley. Two years ago I was at this table, and you 
asked me a very similar question. And Mike Griffin had been at 
the table, I think, an hour or so before me, and you had asked 
a similar question. And Mike, in fact--Mr. Li, you would 
remember this--Mike said that in the follow-up contracts, which 
we now have on contract, he was going to require us to have a 
capital management plan or a human capital plan in there.
    Since that time--of course, there are now real contracts 
and real work. And in particular, we are a sub to Lockheed 
Martin on the Ares vehicle. And we are a sub to ATK on the Ares 
I. We are doing work on the demo flight. And so there are a 
number of areas where we are involved in the follow-on programs 
with folks that are really Shuttle guys, and have been Shuttle 
guys all along.
    In addition, as you are acutely aware in Florida, Steve 
Kohler now, from Space Florida, the business development group, 
or economic development group, we are looking at opportunities 
that are out there that would allow us to fill that gap with, 
perhaps, other work and other businesses.
    We have not done a really good job over the years of sort 
of bragging outside of this immediate family about our 
capabilities, either in Houston or in Florida. We are doing 
more of that now to sort of show the world out there that we 
can do more.
    We have done some concrete things in the company, in our 
human resources world. Bill Gerstenmaier and his team and my 
team just recently completed the contract negotiations that 
takes us out through 2010, with some options. And we put some 
provisions in there that were very difficult to get through, 
having to do with a number of provisions that deal with 
employees and how you manage those employees. That is the 
capital management plan.
    Bill and his team, and our folks, worked extremely well 
together, and got that on contract, which gives us some of the 
tools to use to manage through this transition, this gap again.
    Mr. Li. Mr. Chairman, I would like to address the civil 
servant side of things, because I understand these plans that 
both these two gentlemen have in place make a lot of sense. But 
I am really worried about the issue that we have not been able 
to hire some folks for a while.
    We have a situation now in the science and engineering 
workforce, civil servant workforce in NASA. They have an 
average age of 46 years. And then if you take a look at the 
next--well, we are talking about people that are very, very 
young. We need to find ways not only to energize folks coming 
out of school to want to come work for NASA, but this is also 
happening at the same time, Mr. Chairman, as you well know, 
that private industry and other Federal agencies, like Homeland 
Security, are going to be looking for that type of expertise.
    We are talking about expertise in program management, 
systems engineering, systems integration. So I think that is 
something on which we need to keep our eye on the ball.
    Senator Bill Nelson. Mr. Gerstenmaier, just to nail down 
points from an previous conversation, right now you are 
looking, if nothing else changes, at March 2015 for the launch 
of the Ares/Orion.
    Mr. Gerstenmaier. That is correct.
    Senator Bill Nelson. I will speak for Senator Hutchison, 
who cannot be here. She and I are both going to try to get the 
funding, as I discussed earlier, and move that date back. For 
many, many reasons.
    Do not think that it is just my parochial hat, which 
clearly is a hat that I wear. It is also my national hat. 
Because, as I said, we do not know what the world's politics 
are going to be like. You have a multi-billion dollar 
investment up there that we want to utilize as a laboratory, 
and we have to have access to it.
    Speaking of that, tell us about cuts. Why can NASA and the 
Air Force not help those folks out? They have been trying to 
get permission, you all extended a contract, you want to take 
cargo up there, and this is an American vehicle. And then 
trying to get permission to launch from what is the eastern 
test range, on one of the abandoned Titan paths.
    Why has that been sitting still for two years?
    Mr. Gerstenmaier. I will have to take that for the record. 
We have worked with them. I do not know the specifics of why it 
has been sitting there. I can provide an answer to you for the 
record. But I do not have that directly in front of me.
    [The information referred to follows:]

    SpaceX Applied to the United States Air Force (USAF) 45th Space 
Wing regarding use of a launch complex at Cape Canaveral to launch the 
Falcon 9 vehicle. NASA is not directly involved in the negotiations 
between SpaceX and USAF. The 45th Space Wing completed its application 
analysis and provided a recommendation to General Kevin P. Chilton, 
USAF, Commander, Air Force Space Command.
    According to the USAF, on April 18, 2007, Dr. Sega, Under Secretary 
of the Air Force, and General Chilton recommended that SpaceX be 
granted a five-year nonexclusive license for SLC-40. Dr. Sega and 
General Chilton briefed Senator Nelson on April 18, 2007, regarding the 
recommendation.

    But we are supporting them from a development standpoint, 
and we have provided the $500 million in funding for them to go 
through. That is being managed by Scott Horowitz and the 
Exploration Systems Mission Directorate, where they have 
certain milestones that they need to make. We have the 
demonstration flights scheduled. We are doing the planning for 
where those demonstration flights will occur, and when they 
occur. We are working with them.
    We are also looking for the future follow-on contracts, 
where we will actually go purchase services to deliver cargo to 
the Space Station. We are starting that activity, to flow that 
in. And out of that work would follow the launch pad 
discussions. I know there has been some discussions about that. 
I just do not know the specifics. And for the record, we will 
find out what the holdup has been with the Air Force, or with 
NASA, or where that sits.
    Senator Bill Nelson. Is it not clearly in the interest of 
the country that we have a vehicle to enable us to get cargo up 
to the International Space Station, until we get our Orion and 
Ares ready to go and have a vehicle that would be less 
expensive to operate.
    Mr. Gerstenmaier. The Commercial Orbital Transportation 
System is something that we need. It is in our plans. It is the 
way we try to bridge the first portion of this gap between 
2010, 2011, 2012, 2013, and 2014. It is in there. We do not 
have enough capability to launch the assets.
    We need the Space Station. The Commercial Orbital 
Transportation System is necessary. It is mandatory. We 
reserved cargo for them to go fly. We put plans together. We 
have funding in our budget to go do that activity. So we are 
moving out on all those aspects. And I will get you an answer 
on the launch pad discussion.
    Senator Bill Nelson. They have not proven their system yet, 
but assuming that they do, the only other way that we have of 
getting cargo up there, under the present plan, is the Russian 
Progress vehicle. Is that correct?
    Mr. Gerstenmaier. This year, we are going to launch a 
European cargo carrying vehicle, called the Automated Transfer 
Vehicle. It should fly this fall on an Ariane spacecraft. That 
is another International Partner vehicle. But it can also carry 
cargo to the crew, as well as water and propellant.
    Then in July of 2009, a Japanese H-2 transfer vehicle comes 
online. Again, that will be able to carry both pressurized 
cargo, things that fly inside a pressurized volume, as well as 
external cargo on the outside. And that is scheduled for 2009.
    The new Commercial Orbital Transportation Systems, they are 
coming online. They will use some of the sensors and some of 
the equipment that are being developed for the Automated 
Transfer Vehicle and also the H-2 transfer vehicle. So we are 
getting some commonality of those components, and making them 
available to the commercial sector, so they can ease their task 
of them coming up and docking with the Space Station.
    Senator Bill Nelson. Have either of those other two 
vehicles been flight tested and proven?
    Mr. Gerstenmaier. No. They are not flight tested or proven. 
In fact, the Automated Transfer Vehicle that flies this year, 
it will dock with the station, but there will be effectively a 
16-day checkout before it comes up and docks with the station. 
During those 16 days, we will do collision avoidance maneuvers 
with it. We will make sure that it flies the way we 
anticipated. We will make sure the software works during that 
kind of checkout period.
    You can think of it, as it comes closer and closer to 
docking, and then we back out, until we gain confidence in that 
vehicle, then when it passes its final check, like a flight 
test, then we can take it on into docking.
    But at this point, none of those vehicles are proven. They 
are still in the development cycle. So that tells us that there 
is a lot of work in front of us of doing this rendezvous prox-
ops activity. And that the Automated Transfer Vehicle, the 
physical hardware has been around for probably more than a 
year. The physical hardware has been ready.
    It has taken a long time to get the software checked out 
and get it ready to go work. And I think our Commercial Orbital 
Transportation folks will have that same problem. We may see 
their hardware ready, but they are not ready from a flight 
software standpoint. And that may be more of a driver to them 
than is apparent today.
    So we factored some of that into our thinking. But we are 
really counting on them. And we are going to do what we can to 
make sure that they are successful.
    Senator Bill Nelson. Where does the Japanese vehicle launch 
from?
    Mr. Gerstenmaier. It launches from Tanegashima, Japan. That 
is their launch site.
    Senator Bill Nelson. It sounds like it is clearly in NASA's 
interest that you have another competitor that would be able to 
have access to the Space Station. And if your answer is that 
the Air Force is holding this up, then we need to have a little 
prayer session with the Air Force. If you would get back to us, 
I would appreciate it.
    Tell me, Mr. McCulley, in the Columbia Accident 
Investigation Board, they determined that inadequate funding 
was a contributing factor to that accident. You pointed out 
that the NASA budget has taken some hits in the past few years, 
as many of us up here have. And you state, ``The Fiscal Year 
2008 budget does not reflect the real needs of the agency.'' 
Can you elaborate?
    Mr. McCulley. Post-Challenger, during that--I have had the 
unfortunate experience of living through a return to flight 
twice. The funding profile that was provided the agency after 
Challenger included moneys to recognize--that recognized the 
additional expense associated with return to flight.
    After Columbia, we took on all this work. We did the same 
things that we had to do before. Redesign. Rework. Rebuild. And 
then you had the hurricanes on top of that in 2004 and 2005. 
And as near as I can tell, as far as I can see, there has not 
been money put in.
    So the agency has been asked to take on this new program, 
continue to fly safely with the old program. Continue to serve 
the Space Station. And to do it on essentially what I--from my 
knowledge, a flat budget.
    Now I do not do policy and I do not do budgets. I am an 
implementer with my customer. But my observation is that they 
do not have enough money to do what they have been asked to do.
    Senator Bill Nelson. To all of you, can the facilities, the 
technologies, and the personnel, be in place to support an 
expedited schedule, to move this thing back from March of 2015? 
What are the long poles in each of your schedules? Mr. 
Gerstenmaier, why don't you try that?
    Mr. Gerstenmaier. Again, I think in my opening remarks, 
when asked, I said we would go back and we would look at the 
critical path, to see where things fit, to see what technology 
things are there. And we will get you an answer on that.
    [The information referred to follows:]

    It is not easy to estimate the savings in development costs that 
would be achieved by accelerating the CEV Initial Operational 
Capability (IOC). The cost of certain design, development, test, and 
evaluation (DDT&E) functions depends on how long a project requires 
those functions, and these additional costs are not insensitive to 
schedule. NASA's parametric estimates of savings below are based solely 
on the cost of staff for these functions multiplied by the number of 
months saved.
    Completing development work on all Constellation systems to support 
IOC earlier than 2015 would avoid DDT&E costs associated with less 
efficient phasing of development activities and stretching the critical 
path while sustaining personnel involved in the early development.
    Parametrically derived estimates using design data known at this 
time (one year prior to Preliminary Design Review) indicate that by 
advancing IOC to 2014 and avoiding these inefficiencies, our net 
estimated savings would be approximately $350 million. However, this 
would require additional funds for development: $350 million in FY 2009 
and an additional $400 million in FY 2010, for a total of $750 million.
    Advancing IOC to 2013 to avoid these inefficiencies would result in 
a net savings of approximately $800 million. However, this would 
require additional funds for development: $400 million in FY 2008, and 
an additional $1.6 billion spread over FY 2009 to FY 2010, for a total 
of $2 billion.

    I know one item that stands out is the J2X engine that is 
on our current critical path. We need to look at that J2X 
engine development and make sure that by getting additional 
funds, we can actually pull that back and it fits from an 
overall standpoint. But that is one item that I can say today 
that we will look at.
    But we will take it for the record to go look and see if 
there are any other items that sit out there, that are sitting 
just behind J2X and the critical path that we would want to 
talk about.
    From a facilities standpoint, I think we are in pretty good 
shape overall. We still have some pad stuff that we need to 
watch. We have to keep one launch pad around to keep a rescue 
Shuttle available for the Hubble repair mission. So we were 
unable to turn that launch pad over to Constellation as early 
as we would like. We need to keep that launch pad in a Shuttle-
ready configuration, to launch a contingency flight, if 
required for the Hubble mission.
    So we have a little bit of extra work there to do with 
Constellation. I do not see that as a showstopper. It could 
potentially impact the test flight, the first Ares four-segment 
test flight that we had planned. But we will watch that.
    From a personnel standpoint, I think we have the resources 
to go on that. We have enabled some of our workforce, as Mike 
McCulley talked about, to actually begin working on some of 
these new activities. So they essentially have two charge 
codes. Which is very good.
    So they can begin working on some of the new activities. 
Then if we have a Shuttle problem, we still have the ability to 
grab that workforce back to pull them back, to help us with 
that. So I think from a workforce standpoint, we have a pretty 
solid and robust plan.
    Senator Bill Nelson. Mr. Karas, what are the long poles in 
your tent?
    Mr. Karas. Well, first of all, Mr. Chairman, I think Mr. 
Gerstenmaier and the NASA team have done a great job. We have 
some excellent facilities, as you know, out of Florida, and the 
O&C, and activities at the Cape. So I think that is good.
    The personnel we are getting, because we are transitioning 
now, are good. I think technology-wise, in our systems, we bid 
very high, you know, technology readiness levels in CEV. So I 
do not worry about that as much as integration and systems 
engineering issues.
    For example, our number one risk on the critical path is 
the launch-abort system. And you may ask, ``Well, that is a 
smaller rocket. How does that drive you?'' Well, we have some 
very difficult but, good safety requirements to meet, which 
drive the size of that vehicle and the launch-abort system, 
which in turn drives the environment and the qualification 
testing. And the next thing you know, you are up against 
schedule. So it is those kinds of issues that we have to work 
through.
    So I do not see any real technology drivers, other than 
human spaceflight is challenging and noble work. And there are 
a lot of things that we have to go do. And I think you end up 
with a schedule driven by integration and test.
    Of course, on the other hand, we would all like to see the 
gap minimized. But on the other hand, we cannot rush human 
spaceflight, and we want to get all the tests right. So it is 
really all about the continuity of the workforce and 
maintaining the workforce--not making the gap any bigger, but 
making sure that those people are available, and the 
integration is done as early as possible.
    Senator Bill Nelson. Mr. Walker, do you think we understand 
the impact of the transition on NASA and the contractor 
workforce during that gap?
    Mr. Walker. The main thing I want to comment on is that 
beyond a shadow of a doubt, the talent is there. No doubt about 
it. I think the aspects of the unknown at this point in time, 
not having a surefire plan to where we are heading, or it being 
presented to the launch team, or the, you know, folks at the 
Cape.
    I think the uncertainty, we need to make sure the morale is 
where it needs to be, as far as the personnel goes. I think 
those are the--you know, coming from us, from the employees 
themselves, I think that is the main concern that is on their 
mind at this point in time.
    I just also wanted to comment, not trying to change the 
subject, but comment at this point in time about relying on 
foreign countries for our program. This program has been part 
of this Nation. It has been the heart of this, as far as I am 
concerned. I have been in this program since--about 29, 30 
years.
    The people out there are very proud of it. But I just 
really find it difficult that we are relying on foreign folks 
to put our program in place for us. I think it is our 
responsibility to do that.
    Senator Bill Nelson. Amen. Let us talk about the Space 
Station during this gap period. Other than, Mr. Gerstenmaier, 
what you have already shared with us with regard to the 
logistics, and some of the vehicles that you talked about, with 
regard to crew rotation, is there anything else we should know 
about how you keep operations going on the ISS during the gap?
    Mr. Gerstenmaier. I think the only thing I would add is 
that we have done quite a bit of work at looking at what 
happens when the Shuttle goes away. Because our original plan 
for the Space Station was to essentially bring spares down from 
the Space Station, repair them in the depot, and then take that 
spare component back up to the Space Station.
    When we lose the Shuttle, we lose the ability to return 
large amounts of cargo to the ground. So we are in the process 
now of redesigning that sparing philosophy, where it is more of 
a disposable sparing philosophy.
    So as a component fails, we will just fly a new one up from 
the ground. So we are going to have to reestablish some new 
supply lines to get that sparing in place.
    We are doing that, looking forward to exploration. So if we 
have to build a new electronics box, we are trying to look at, 
could we do something in combination with the exploration group 
that they are going to need. So we do not build a unique 
replacement for a station that is not consistent with what 
exploration needs.
    That also allows us to check that hardware out, 
essentially, and test it on orbit, and make sure it works in 
the space environment before exploration needs it. So we are 
kind of going through kind of component by component, seeing 
what we can do to help get a synergy between what exploration 
needs and what we need to replace to help with that supply line 
that goes forward.
    Mr. Li. Mr. Chairman, one of the issues on the Space 
Station that many folks have been talking about is, if 2010--
and it is the date at which we will retire the fleet. There are 
two flights in 2010. The last two flights are, in essence, 
bringing up pre-positioning spares.
    If those flights do not come to fruition, that will have 
severe consequences on what the life of the station will be. 
And, therefore, the research that we are going to be able to 
conduct will be curtailed. And that is a very important point 
to raise.
    Senator Bill Nelson. It is. And thank you for raising it.
    Mr. Gerstenmaier, let me ask you, setting aside the cuts, 
what do you see in the progress--the Japanese HTV and the 
European ATV? What percentage of the cargo, during the gap, 
would be carried up by each of those?
    Mr. Gerstenmaier. The way we have allocated it now is it is 
on a yearly basis. On a yearly basis--we are in the process of 
procuring in 2010, 4.2 metric tons of cargo from the Russians, 
to be carried on a series of Progress vehicles throughout that 
year. That does not all come up on one vehicle. It gets spread 
on several Progress vehicles throughout that year.
    In that same year, 2010, we have 4.9 metric tons available 
for the Commercial Orbital Transportation System. So we have 
more cargo available to be carried by our commercial system 
than we have given to the partners, in that respect, by the 4.2 
versus the 4.9.
    As part of their commitment to the Space Station, both the 
Europeans and the Japanese provide us these launch vehicles. So 
the Automated Transfer Vehicle and the HTV vehicle, those are 
their payment in kind for us launching their modules to orbit 
and operating them on orbit.
    So we are not purchasing those services from either the 
Europeans or from the Japanese. Those are provided to us as 
part of the basic agreement of the Space Station. We will have 
basically one of those vehicles each year. We will have one ATV 
vehicle and one HTV vehicle per year during that time-frame. 
But, again, we are not purchasing those. Those are part of 
their commitment for us providing the launch of their modules 
and operations of their modules.
    So the difference is, as you go back to the numbers, 4.2 
versus 4.9. So we have basically more cargo available for the 
Commercial Orbital Transportation System than we do for what we 
are purchasing from the Russians in the initial phase.
    Senator Bill Nelson. How much are we going to pay the 
Russians for those vehicles?
    Mr. Gerstenmaier. For now----
    Senator Bill Nelson. During that period of what you have 
planned now as the gap, 2010 to 2015.
    Mr. Gerstenmaier. We are only permitted now to purchase 
Russian vehicles through December 2011. We have legislation 
that does not allow us to purchase Russian vehicles beyond 
January 1, 2012. So between now and 2011, we have--we have 
purchased transportation, habitation, and the cargo services. 
The value of all that contracting is about $700 million.
    Senator Bill Nelson. Is that for the period of time from 
2010 to 2011?
    Mr. Gerstenmaier. It actually goes back to 2009 through 
2011. That period.
    Senator Bill Nelson. I am trying to figure out what it is 
going to cost during the gap.
    Mr. Gerstenmaier, by accelerating the IOC date, 
considerable savings could be achieved in the overall life-
cycle costs of the Constellation program. How much savings 
could be gained by moving the launch up? My question is for 
2014, from March of 2015. And then I am going to ask you for 
2013.
    Mr. Gerstenmaier. OK. For the 2013 answer, that one is 
similar to the one you asked before. We would like to take that 
one for the record, because it may be more than just a funding 
issue. We need to go look at the hardware pieces, and make sure 
that there is not some other thing that sticks out there that 
causes a problem that no matter how much money we get, it may 
not be physically possible to move up to 2013. We do not think 
so, but we want to go confirm that, so we need some time to go 
work that.
    For the 2014 answer, to move the 6-months forward, the 
development savings is about $1.1 billion. Then the costs to do 
that would be $750 million. To advance it from, essentially, 
March, up into September. So a net savings of $350 million, 
from just a development standpoint. And that is from 2015, to 
September 2014.
    Senator Bill Nelson. So a net of $350 million is what you 
save.
    Mr. Gerstenmaier. In development.
    Senator Bill Nelson. All right. When you factor in what you 
would save on the purchase of Russian vehicles, is all that 
calculated in there?
    Mr. Gerstenmaier. That is not calculated in there. We need 
to go look at that. Because, again, there will be some costs 
associated with flying CEV, from an operational standpoint, 
that will offset some of the savings that we gain by not having 
to pay for the Russian vehicles. And we need to go do that 
calculation.
    Senator Bill Nelson. Well, that was the question I asked of 
Dr. Griffin. And I wanted to get all that on the table, so that 
we are talking apples to apples. If we move it back two years 
by spending more money now in the development cycle what is it 
going to end up saving us down the line? Not even to speak of 
lessening our reliability on all these foreign systems.
    I thought you all were going to be prepared to give us that 
answer today. So when could we expect that?
    Mr. Gerstenmaier. We can get you an answer in 2 weeks.
    [The information referred to follows:]

    Compared to existing Russian assets, the Commercial Orbital 
Transportation Services (COTS) program is intended to result in more 
affordable, U.S. crew and cargo delivery capability to the 
International Space Station. If U.S. commercial services are 
unavailable or unaffordable post-Shuttle retirement in 2010, services 
from Russia, other International Partners, and the Orion/Ares I vehicle 
would be used. The estimated marginal cost of an Orion/Ares I flight is 
approximately $40 million per seat, while a seat on a Soyuz flight in 
2014 is expected to cost approximately $37 million based on inflating 
the currently contracted seat cost. While this price difference is 
negligible, NASA believes national priorities rather than comparative 
costs between Soyuz and Orion drive the decision both to pursue COTS 
and to prevent further slippage of the Orion/Ares I IOC. A shorter 
transition from Shuttle to a new U.S. spaceflight capability will also 
meet U.S. policy objectives spelled out in the Vision for Space 
Exploration and the NASA Authorization Act of 2005 (Pub. L. 109-155).

    Senator Nelson. All right. We will have another hearing at 
some point in the future, so we can get all of that out on the 
table. You obviously see where I am going. I would not like to 
have to pay Russia for access to space. Not even to speak of 
all the uncertainties there. And at the same time, cut American 
jobs, and cut all that expertise, and all that corporate 
memory.
    Let us go on to something else. Achieving an on-time launch 
of an Ares/Orion system will depend, in large part, on all of 
these technical programmatic issues and financial management. 
Mr. Li, I am going to ask you this.
    The Government Accountability Office released a report last 
year critical of NASA's acquisition strategy for the Orion 
vehicle. I understand that NASA has since made some changes in 
the Orion contract. Would you bring us up to date on that 
status?
    Mr. Li. Certainly, sir. Thank you for that question. The 
issue that we had a disagreement about related to the fact that 
NASA wanted to write a contract and provide that contract to go 
all the way through production and sustainment.
    We disagreed with that approach, and felt that they had 
insufficient knowledge to be able to make that commitment for 
the country. As a result of some discussions that we had 
subsequent to our report, NASA changed their acquisition 
strategy, and instead of having one single contract, had one 
contract with the development and test, and put production and 
sustainment as options. They will wait until they have further 
information, until they will write those contracts for what 
they call schedule B and C.
    We are still concerned, however, Mr. Chairman, about the 
fact that they have gone a little bit farther than we would 
like, because we do not think they have the knowledge. And that 
particular knowledge, there has been discussion about the fact, 
is the business case that GAO is talking about.
    When we talk about a business case, we are talking about an 
issue where the requirements are well understood. We are 
talking about a situation where there are good cost estimates. 
And we are talking about where technology is mature.
    The issue that--and Mr. Karas mentioned this in terms of 
technology readiness levels. This is a unit of measure that 
actually NASA has developed and now is also being used by the 
Department of Defense.
    The issue is not only the maturity of individual components 
or subsystems. The issue is the integration of those particular 
systems. That is where things fall flat. In terms of cost, that 
is also an area where--when we have cost overruns, that has 
been an area where that has shown up.
    Senator Bill Nelson. Mr. Gerstenmaier and Mr. Karas, do you 
want to comment on that?
    Mr. Karas. Yes, sir, Mr. Chairman. Well, I think since 
before the phase one CEV contract finished and before CEV 
proposals went in, I think, at least from a contractor 
standpoint, we worked really hard on, I will say our cost 
estimating and our technology maturity.
    And since then, we have had at least one or two design 
cycles, two design cycles, with NASA, at JSC, and I believe 
that our requirements are maturing. We have had a System 
Requirements Review (SRR), and have closed another design 
cycle. And we are rolling all those into new cost estimates.
    So I think our design maturity level is increasing. I think 
that we have a really good set of cost estimates, a good plan, 
that we are working on. And I agree with Mr. Li when he talks 
about integration. And I think any large program of this 
magnitude has those things to work through.
    I think we have an excellent partnership with NASA, with 
what we are working on. And the fact that we have collocated 
with NASA in our work, not only in Florida, for final assembly, 
but in Texas, as far as the engineering, to work side by side 
with NASA to try to mitigate those issues.
    I think we are off to a great start. And, of course, every 
year we have to earn our stripes and our wings. And I think, if 
anything, the requirements and cost estimates are maturing and 
getting better all the time.
    So I think those are things that we always have to worry 
about with guarded optimism, but I think the situation is as 
good as I have seen in any NASA program that I have been 
associated with.
    Mr. Gerstenmaier. I do not think there is anything that I 
would add specifically. Scott Horowitz manages the Exploration 
Systems Mission Directorate, and he follows this activity a lot 
closer than myself. So I would ask if Scott has anything that 
he would like to add, that he could mention that now. Scott?

                STATEMENT OF SCOTT J. HOROWITZ,

         ASSOCIATE ADMINISTRATOR, EXPLORATION SYSTEMS,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Horowitz. Thanks. Yes, sir. As Mr. Li mentions, you 
know, we always worry about requirements stability. If you want 
a program to succeed in your requirements stability, use known 
technologies, and have stability in budget and programming.
    When we worked through the initial design of Orion, we had 
two internal NASA designs that flesh out the requirements of 
the mainstream team and then a smart buyer team. We also had 
two contractor teams competing for the design.
    And one of the things that gives you a really good feel 
that you knew your high-level requirements--though they have 
not changed, four people to the Moon, six people to the 
station. If you laid all four models from all four teams on the 
table, to the untrained observer, you could hardly tell a 
difference. I mean the biggest change we have had in over a 
year to the vehicle is that the size changed about half a 
meter. That is the biggest change we have had.
    So we have a lot of stability at the high level. We are 
working as a team. We had advanced the design as far as NASA 
could advance it on their own. We had to get a contractor 
onboard to take the best ideas of the contractor world, the 
best ideas of NASA, form a team to go solve all these 
engineering problems that are being discussed. So it is not a 
technology problem. It is really a group of people working 
together doing good systems engineering. Thank you for your 
time.
    Senator Bill Nelson. Yes, sir. Anything else that any of 
you all would like to bring before the Committee? I am going to 
submit some questions for the record on behalf of Senator 
Hutchison. And if you all could respond to them. Is there 
anything else you want to bring up? Mr. Walker?
    Mr. Walker. Yes. I just wanted to make a couple of last 
comments. During the Titan fly-out, when the Titan program flew 
out, we had contingencies to keep the talent in place until the 
end of mission. There is a GAO report out about the management, 
the capital management program. And I just wanted to make sure 
that there is consideration given to the front-line hourly and 
salaried individuals, that they would be included in that.
    If we are going to cut back, and it appears to me we are, 
how do we take care of those folks who have dedicated their 
lives to these programs? I think it is fair and it is just.
    The other comment I wanted to make is, I also serve on 
Space Board Florida, trying to bring in more commercial 
business to help supplement some of these cutbacks that we are 
going to do. During those discussions that we had, range safety 
was an issue brought up. That we had to somehow streamline or 
get rid of the red tape in some way, shape up range safety.
    So that process, I believe, is currently going on, as far 
as Space Florida is concerned. But yes, it is certainly a 
problem that stands in our way of bringing in commercial--and 
being competitive in that nature.
    Senator Bill Nelson. And that has been going on for years.
    Mr. Walker. Yes, sir.
    Senator Bill Nelson. Your concerns about the workforce are 
certainly acknowledged and shared. The ideal is to have as 
little disruption of that workforce as is possible, that is, 
otherwise, not taken by normal retirements. And I said ``normal 
retirements.''
    I want to get all these answers out on the table, as we are 
going ahead. In the meantime, let me implore you. Senator 
Hutchison and I cannot do this by ourselves. There are key 
additional Senators and we are going to need to have their 
help. And every one of you sitting at that table has a 
relationship with those Senators.
    I would appreciate it very much if you would give them the 
value of your knowledge and your opinion, and if you would do 
that personally with those Senators. This is a pretty important 
deal to the future of the civilian space program. I would 
appreciate it very much if you would make it a point, each one 
of you, to do that.
    Thank you very much. If there is no further business, the 
meeting will stand adjourned.
    [Whereupon, at 4:43 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    I want to thank you Mr. Chairman, for convening this extremely 
important hearing, and I join you in welcoming our very distinguished 
panel.
    I firmly believe that successfully making the transition from the 
Space Shuttle to the next generation of U.S. human spaceflight is vital 
to the economic well-being and security of our Nation.
    I want to emphasize my reference to ``United States human 
spaceflight,'' because we are in an era where the ability to launch 
humans into space is no longer limited to just the United States and 
Russia.
    Already, China has joined that exclusive group of nations, and 
others, such as India and the European Space Agency, are actively 
exploring the development of independent human spaceflight 
capabilities. Still other nations are expressing interest in doing so.
    In an age of increasing global technological competitiveness, these 
are significant developments, and they require the United States to be 
aggressive and vigilant if we are going to maintain our long-standing 
leadership in the area of human spaceflight.
    I know that both of us, Mr. Chairman, remain very concerned about 
the gap between the retirement of the Space Shuttle and its replacement 
with the Ares I launch vehicle and the Orion crew spacecraft.
    We have been told by NASA that, to a very great extent, the closing 
of this gap is a matter of current funding levels, and the confidence 
in future funding levels. I am committed, as I know you are, to trying 
to address both of those concerns, and in seeking Administration 
agreement and support to do so.
    I am delighted that we have a panel of witnesses today who are 
squarely at the pointed edge of the spear of ensuring U.S. human access 
to space. I hope they will be able to tell us what specific things we 
need to be aware of to ensure we do not take any missteps in moving 
forward, and I look forward to receiving their statements and hearing 
their responses to our questions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        William H. Gerstenmaier
    Question 1. What are the savings in development costs by 
accelerating IOC to 2014? To 2013?
    Answer. It is not easy to estimate the savings in development costs 
that would be achieved by accelerating the CEV Initial Operational 
Capability (IOC). The cost of certain design, development, test, and 
evaluation (DDT&E) functions depends on how long a project requires 
those functions, and these additional costs are not insensitive to 
schedule. NASA's parametric estimates of savings below are based solely 
on the cost of staff for these functions multiplied by the number of 
months saved.
    Completing development work on all Constellation systems to support 
IOC earlier than 2015 would avoid DDT&E costs associated with less 
efficient phasing of development activities and stretching the critical 
path while sustaining personnel involved in the early development.
    Parametrically derived estimates using design data known at this 
time (one year prior to Preliminary Design Review) indicate that by 
advancing IOC to 2014 and avoiding these inefficiencies, our net 
estimated savings would be approximately $350 million. However, this 
would require additional funds for development: $350 million in FY 2009 
and an additional $400 million in FY 2010, for a total of $750 million.
    Advancing IOC to 2013 to avoid these inefficiencies would result in 
a net savings of approximately $800 million. However, this would 
require additional funds for development: $400 million in FY 2008, and 
an additional $1.6 billion spread over FY 2009 to FY 2010, for a total 
of $2 billion.

    Question 2. What savings, if any, would we realize by not having to 
use Russian assets?
    Answer. Compared to existing Russian assets, the Commercial Orbital 
Transportation Services (COTS) program is intended to result in more 
affordable, U.S. crew and cargo delivery capability to the 
International Space Station. If U.S. commercial services are 
unavailable or unaffordable, post-Shuttle retirement in 2010, services 
from Russia, other International Partners, and the Orion/Ares I vehicle 
would be used. The estimated marginal cost of an Orion/Ares I flight is 
approximately $40 million per seat, while a seat on a Soyuz flight in 
2014 is expected to cost approximately $37 million based on inflating 
the currently contracted seat cost. While this price difference is 
negligible, NASA believes national priorities rather than comparative 
costs between Soyuz and Orion drive the decision both to pursue COTS 
and to prevent further slippage of the Orion/Ares I IOC. A shorter 
transition from Shuttle to a new U.S. spaceflight capability will also 
meet U.S. policy objectives spelled out in the Vision for Space 
Exploration and the NASA Authorization Act of 2005 (P.L. 109-155).
                                 ______
                                 
    Response to Written Questions submitted by Hon. Bill Nelson to 
                        William H. Gerstenmaier
    Question 1. What are the savings in development costs by 
accelerating IOC to 2014? To 2013?
    Answer. It is not easy to estimate the savings in development costs 
that would be achieved by accelerating the CEV Initial Operational 
Capability (IOC). The cost of certain design, development, test, and 
evaluation (DDT&E) functions depends on how long a project requires 
those functions, and these additional costs are not insensitive to 
schedule. NASA's parametric estimates of savings below are based solely 
on the cost of staff for these functions multiplied by the number of 
months saved.
    Completing development work on all Constellation systems to support 
IOC earlier than 2015 would avoid DDT&E costs associated with less 
efficient phasing of development activities and stretching the critical 
path while sustaining personnel involved in the early development.
    Parametrically derived estimates using design data known at this 
time (one year prior to Preliminary Design Review) indicate that, by 
advancing IOC to 2014 and avoiding these inefficiencies, our net 
estimated savings would be approximately $350 million. However, this 
would require additional funds for development: $350 million in FY 2009 
and an additional $400 million in FY 2010, for a total of $750 million.
    Advancing IOC to 2013 to avoid these inefficiencies would result in 
a net savings of approximately $800 million. However, this would 
require additional funds for development: $400 million in FY 2008, and 
an additional $1.6 billion spread over FY 2009 to FY 2010, for a total 
of $2 billion.

    Question 2. What savings, if any, would we realize by not having to 
use Russian assets?
    Answer. Compared to existing Russian assets, the Commercial Orbital 
Transportation Services (COTS) program is intended to result in more 
affordable, U.S. crew and cargo delivery capability to the 
International Space Station. If U.S. commercial services are 
unavailable or unaffordable post-Shuttle retirement in 2010, services 
from Russia, other International Partners, and the Orion/Ares I vehicle 
would be used. The estimated marginal cost of an Orion/Ares I flight is 
approximately $40 million per seat, while a seat on a Soyuz flight in 
2014 is expected to cost approximately $37 million based on inflating 
the currently contracted seat cost. While this price difference is 
negligible, NASA believes national priorities rather than comparative 
costs between Soyuz and Orion drive the decision both to pursue COTS 
and to prevent further slippage of the Orion/Ares I IOC. A shorter 
transition from Shuttle to a new U.S. spaceflight capability will also 
meet U.S. policy objectives spelled out in the Vision for Space 
Exploration and the NASA Authorization Act of 2005 (P.L. 109-155).
                                 ______
                                 
 Responses to Written Questions Submitted by Hon. Kay Bailey Hutchison 
                                  to 
                        William H. Gerstenmaier
    Question 1. Assuming you can avoid more severe hailstorms or other 
weather-related damage, how confident are you that the remaining 
Shuttle manifest can be completed before September of 2010?
    Answer. NASA launched the Space Shuttle Atlantis STS-117 mission to 
the International Space Station on June 8, 2007. STS-118 is currently 
scheduled for launch on August 7, 2008. Endeavour rolled out of the 
Orbiter Processing Facility to be mated to the external tank on July 2, 
2008. By the end of 2008 or the first part of 2009, the ripple in the 
manifest caused by the delay of this launch due to hail damage should 
have settled out, and NASA should be back on track to complete the 
manifest by the end of FY 2010. The Agency should still have the same 
margin as today to complete any assembly flights and the Hubble 
servicing mission.

    Question 2. If, for whatever reason, you have not completed that 
manifest by September of 2010, how will you ensure that the ISS will be 
completed, as mandated by the Vision for Exploration--and the NASA 
Authorization Act of 2005?
    Answer. The Shuttle manifest calls for 13 assembly flights to the 
International Space Station (ISS) and one to service the Hubble Space 
Telescope. In addition, NASA may fly up to two additional ISS logistics 
flights if they are deemed necessary and can be flown before the end of 
2010. There is sufficient schedule margin in 2010 such that, if a 
flight had to slip out of 2008 or 2009, it could still be flown before 
September 2010. If there is an unforeseen event that leads to 
insufficient schedule margin remaining in which to conduct any planned 
missions, NASA will discuss the impacts with the International Partners 
and develop a revised transportation plan. NASA has no plans to fly the 
Shuttle after 2010, and indeed the Shuttle cannot fly after 2010 
without causing major disruptions to the Exploration Program. Major 
contracts and subcontracts are being terminated which make the option 
of flying additional flights impractical. The basic assembly sequence 
is ordered in a manner that flies the technically required flights 
first and then flies the International Partner elements in the order 
negotiated with all Partners. The last flights, including Node 3, are 
important for the long-term health of ISS, but could be dropped if no 
other alternatives exist.

    Question 3. You do not yet have the Ares I Upper Stage under 
contract, as you have indicated. What are the major schedule drivers 
expected to be in that development? What are the prospects for 
accelerating that development beyond what you currently envision?
    Answer. The Upper Stage Production Request for Proposal (RFP) 
issued on February 23, 2007, invited companies to bid on the work, 
which includes helping NASA with design and then fabricating, 
assembling, inspecting and delivering an integrated upper stage. Final 
assembly will be at NASA's Michoud Assembly Facility in New Orleans. 
Proposals had to be submitted by April 13, 2007, and NASA expects to 
award a contract at the end of August 2007. The winner of this 
competitive solicitation will work alongside a NASA team that is 
currently designing the upper stage. The NASA Upper Stage Design team 
has been working since November 2005, and will continue to lead design 
and integration work after the production contract is awarded for the 
upper stage.
    The NASA Upper Stage Design team's first priority is to take the 
necessary time to properly and thoroughly develop requirements for the 
upper stage design. The Design team held their System Requirements 
Review on April 3, 2007, which verified that all requirements were 
accurately defined and allocated down to the various subsystems of the 
upper stage.
    The major schedule drivers for the development of the upper stage 
include the definition of the manufacturing and inspection process for 
the common bulkhead design of the tanks, as well as the development of 
long-lead components. The Design team is aggressively defining risk 
mitigation plans for the common bulkhead manufacturing process in order 
to preserve the current development schedule. In addition, the Design 
team is trying to expedite the design and development phase by 
initiating early development activities for selected long-lead 
components, such as Main Propulsion System Pre-Valve, Roll Control 
System Thrusters, and selected structural components. The next step is 
to test the early-developed test components to anchor the design and 
analysis models.
    Prospects for acceleration of the upper stage development effort 
will be evaluated after the production contract is awarded at the end 
of August 2007.

    Question 4. In your statement, you pose--and answer--the question 
of extending Shuttle flights beyond 2010 to close the gap in U.S. human 
spaceflight. Your answer was two-fold:

    a. It would take $4 billion a year to continue Shuttle operations, 
and that money would come from the Constellation development--causing 
still further delay in Ares I and Orion.
    b. The Space Shuttle is complex and difficult to fly safely.

    The first part of your response assumes a level of funding 
reflected in the current budget run-out. But if it was deemed a 
sufficiently high priority to close that gap--and the necessary funds 
were provided to cover its cost, then the remaining reason would be 
that the Space Shuttle is difficult to fly safely. But we are flying it 
now, nevertheless. Is it going to be that much harder after 2010?
    Answer. There are three problems--in addition to the $4 billion per 
year required-with flying the Shuttle beyond 2010. First, it is 
difficult to retain the focus necessary from the workforce to fly 
safely for multiple years with an uncertain future. Today we know how 
many flights remain and the time duration. NASA can concentrate the 
agency's efforts and remain focused for this fixed period. If we go 
beyond 2010 with an uncertain end, it will be extremely difficult to 
manage the closeout and fly safely. The second problem with flying 
beyond 2010 is that the mission no longer requires the unique 
capabilities of the Shuttle, and no longer justifies the risk of flying 
a complicated vehicle such as the Shuttle. Prior to 2010, the focus is 
on assembling the International Space Station and outfitting it for 
research and sustained operations. This period requires the unique 
capabilities of the Shuttle and warrants the complexity and risk of 
Shuttle flights. Beyond 2010, the primary focus would be crew 
transportation and logistic and scientific resupply. This does not 
require the unique capabilities of the Shuttle and can be performed 
simpler, less complicated and with a less expensive transportation 
systems. Finally, flying the Shuttle past 2010 would cause major 
disruptions to the Exploration Program, which is planning to use many 
Shuttle resources.

    Question 5. Your statement mentions completing the ISS will fulfill 
our commitments to our International Partners and ``enable us to 
conduct exploration-focused research onboard.'' What about non-
exploration-focused research, as required by law?
    Answer. Section 204 of the NASA Authorization Act of 2005 (P.L. 
109-155) directs the Agency to allocate at least 15 percent of the 
funds budgeted for International Space Station (ISS) research to 
ground-based, free-flyer, and ISS life and microgravity science 
research that is not directly related to supporting the human 
exploration program. NASA is fully complying with this direction as 
outlined below.
    1. Restoration of Cancelled Grants--NASA has restored 30 grants in 
fundamental biological and physical sciences in the areas of 
Combustion, Fluid physics, Materials science, Cell Science, Animal 
Science, Cellular biotechnology, Plant biology, and Neuroscience.
    2. Free Flyer Research--NASA has allocated resources toward 
domestic and Russian free flyer research participation.
Domestic Free Flyers
  <bullet> Experiments completed on orbit

    --GeneBox (Bigelow Genesis 1; 7/12/06): A non-deployable Technology 
            Demonstration testing satellite bus and payload technology 
            components of GeneSat-1.

    --GeneSat-1 (Minotaur-1; 12/16/06): Technology Demonstration 
            validating autonomous, in-situ small (nanosatellite-class) 
            spacecraft capabilities to conduct an E. coli growth 
            experiment.

  <bullet> Approved for flight

    --PharmaSat-1 (Launch ready 10/1/07): Microgravity effect on yeast 
            susceptibility to antifungal drugs in the space 
            environment.

    --3 MicroSat Flights (2008-2011).
Russian Free Flyers
  <bullet> Approved for flight

    --Foton M3 (Launch 9/2007): Four NASA sponsored bacteria, snails, 
            geckos and newts Russian collaboration experiments. Follow 
            on experiments for Foton M2 (5/31/05) collaborations.

  <bullet> Projects being considered for flight

    --Bion M1 (Launch 9/2010): Determine immunological and other 
            effects of lengthy periods of weightlessness on rodents.

    3. ISS Research--ISS Research has been completed or is planned in 
Physical and Biological Sciences:
Biological Sciences
  <bullet> Experiments completed on orbit

    --Leukin (13S; Inc. 13): Effects of spaceflight on the T-cell 
            component of the immune response.

    --FIT (STS-121; Inc. 13): Immune response of Drosophila to 
            spaceflight; a model of the human system.

    --TROPI (STS-121 and STS-115; Inc. 13 and 14): Plant responses to 
            light and fractional g using ESA's EMCS.

    --Microbe (STS-115; Inc. 13): Virulence of opportunistic pathogens 
            determined following spaceflight.

    --POEMS (Passive Observatories for Experimental Microbial 
            Systems)--(Increments 13 and 14): Mechanisms in the 
            development of virulence, pathogenicity, and anti-microbial 
            resistance in bacteria.

  <bullet> Approved for Flight (Manifested)

    --SPEGIS (STS-118; Inc. 15): Spaceflight effects on Streptococcus 
            pneumoniae gene expression and virulence.

  <bullet> Under Development

    --APEX--Cambium (Advanced Plant Experiments on Orbit)--Demonstrate 
            remote sensing biometric techniques for stress detection in 
            living organisms.
Physical Sciences
  <bullet> Experiments completed on orbit

    --BCAT 3 (Binary Colloidal Alloy Test)--(Increment 13): Determine 
            phase separation rates and properties of model critical 
            fluid system.

  <bullet> Approved for Flight (Manifested)

    --SHERE, hardware (Shear History Extensional Rheology Experiment)--
            10A (Increment 15): Effect of preshear on the transient 
            evolution of microstructure and viscoelastic tensile 
            stresses for polymer solutions. Samples to be flown on 
            later flight.

    --InSPACE-2 (Investigating the Structures of Paramagnetic 
            Aggregates) -10A (Increment 15): To study the gelation 
            transition in magneto-rheological fluids (MR) under steady 
            and pulsed magnetic fields.

    --BCAT 4 (Binary Colloidal Alloy Test)--1J/A (Increment 16): 
            Determine phase separation rates and properties of model 
            critical fluid system.

    --CSLM-2 (Coarsening in Solid-Liquid Mixtures-2)--15A (Increment 
            17): Determine the factors controlling the morphology of 
            solid-liquid mixtures during coarsening.

  <bullet> Projects under development

    --SPICE (Smoke Point in CoFlow Experiment)--Improve the 
            understanding of soot emission from jet flames, by 
            measuring smoke-point properties of jet diffusion flames in 
            a co-flow environment.

    --FLEX-2 (Flame Extinguishment Experiment)--The experiment will 
            assess the effectiveness of fire suppressants in 
            microgravity.

    --CCF, International Agreement with the DLR (Capillary Channel 
            Flow)--Spacecraft fuel tanks that supply gas-free 
            propellant to thrusters directly through capillary vanes.

    --ZBOT (Zero Boil-off Tank Experiment)--Will improve design of 
            long-term cryogenic storage tanks.

    In summary, NASA is balancing its portfolio to meet the 
requirements of the NASA Authorization Act of 2005, pertaining to non-
exploration research. In addition, NASA is developing long-range plans 
to utilize the ISS and free flyers beyond 2010. Non-exploration 
payloads for ISS will use existing or soon to be delivered science 
facilities and racks.

    Question 6. You indicate that in addition to the 13 remaining ISS 
assembly flights, there may be two additional ISS logistics flights--
``if needed.'' What determines whether or not they are needed? What are 
the planned payloads for those flights?
    Answer. The two potential contingency flights to the International 
Space Station (ISS) would largely carry ISS spares, possibly including: 
external heat rejection system pump module assemblies (2 units); a 
fluid hose rotary coupler; a nitrogen tank assembly; the control moment 
gyroscope for non-propulsive attitude control; a spare special purpose 
dexterous manipulator arm, a Mobile Transporter/Trailing Uptake System 
Real Assembly and linear drive unit to support robotic maintenance; a 
large Space to Ground antenna; a high pressure oxygen gas tank; and 
nine electrical power components, including six batteries. The need for 
these contingency flights must be continually assessed based on the 
sparing needs of ISS, the ability of the Shuttle program to safely fly 
the mission before 2010, and the availability of alternate carriers 
capable of carrying some or all of the hardware. These are unique 
hardware designed to be carried on the Shuttle and, before they can be 
manifested, careful analysis must be addressed. The planning and 
ordering of a carrier is also a key consideration. NASA is continuing 
to look at creative means to provide sparing for ISS.

    Question 7. Your statement mentions, on page 4, that ``key leaders 
in the ISS program have transitioned to senior management positions in 
Exploration.'' I was not aware we were trying to attract key leaders 
away from ISS, which we plan to use--even in your own budget planning--
for another 10 years. Can you explain the impact to ISS of those 
transfers?
    Answer. NASA is not trying to attract key leaders away from the 
International Space Station (ISS) program. Rather, NASA is using its 
workforce in a manner to best support all Agency programs. This 
approach benefits NASA and the individuals. It also allows NASA to grow 
new leaders in the ISS program, which makes for a healthy workforce. 
Several of the key Constellation program personnel have at one time or 
another participated in the ISS program. In coordination between the 
ISS program and the field centers, NASA is actively balancing the 
personnel needs of the three human spaceflight programs: Space Shuttle, 
ISS, and Constellation. As a result, the ISS program maintains a broad 
depth of management, technical and operational expertise within the 
program and in the supporting organizations.

    Question 8. What are the ISS payloads that can only fly on the 
Space Shuttle, without being greatly modified, that are no longer 
included in the Shuttle manifest? What key research capabilities or ISS 
infrastructure will be limited by those deletions?
    Answer. The spares identified in response to Question 6 represent 
very large orbital replacements units that can currently only be 
delivered to the International Space Station (ISS) using the unique 
capabilities of the Space Shuttle. Although these items are not 
currently included in the Shuttle manifest, they could be delivered on 
the two potential contingency flights that remain in preliminary 
planning stage at this time. They could also potentially be carried on 
future commercial or International Partner vehicles, although it is not 
yet clear whether these future vehicles will be available or will have 
the capability to launch all of these spares. In addition, two very 
large research payloads, the Centrifuge Accommodations Module (CAM) and 
Alpha Magnetic Spectrometer (AMS) are no longer in the Shuttle 
manifest. The CAM was originally designed to accommodate research in 
fundamental biology and has since been determined as non-essential to 
achieve exploration objectives, while the AMS is designed for research 
in high-energy particle physics.
                                 ______
                                 
    Responses to Written Questions Submitted by Hon. Mark Pryor to 
                        William H. Gerstenmaier
Enhanced Use Lease Authority
    Question 1. Mr. Karas suggests expanding NASA's enhanced use lease 
(EUL) authority. The GAO recently recommended that NASA develop an 
Agency-wide EUL policy and NASA agreed with this recommendation. This 
Committee looks forward to receiving the EUL policy document. How would 
expanding NASA's EUL authority help with the transition from Space 
Shuttle to Orion?
    Answer. Expansion of NASA's enhanced use lease (EUL) authority 
facilitates NASA's ability to realign real property assets with NASA 
missions. The experience at the two NASA EUL demonstration Centers 
indicates that EUL has wide potential to support NASA changing 
facilities needs in support of mission requirements. Expanded EUL 
authority will support improved performance of NASA infrastructure by 
positioning the Agency to recover asset values, improve facility 
conditions, and thereby achieve improved mission effectiveness. EUL 
will provide flexibility for the use of underutilized NASA facilities 
and infrastructure by the contractors and other parties working with 
NASA to develop Orion and other parts of the Constellation program. The 
use of EUL will also allow retention of rent revenues for improvement 
of other NASA facilities including those to be used in the development 
of Orion.
SpaceX and Rocketplane Kistler--Human Flight Option D
    Question 2. NASA is providing seed funding to SpaceX and 
Rocketplane-Kistler to develop new rockets and spacecraft for 
logistical support to ISS through the Commercial Orbital Transportation 
Services. Both companies have proposed an ``Option D'' to qualify their 
spacecraft for human flight. NASA has not yet exercised Option D with 
either company. What are NASA's plans for exercising Option D?
    Answer. NASA has pre-negotiated optional milestones and costs 
associated with demonstrating a crew transportation capability, 
Capability D, within each of our Partners' existing Space Act 
Agreements (SAA). NASA can exercise this optional demonstration at any 
time, but does not plan to do so until after a Partner successfully 
demonstrates a viable orbital cargo transportation system, as defined 
by completing all cargo transportation milestones defined in each 
partner's Space Act Agreements. Any exercise of Capability D would also 
depend on whether there is money available to cover payment of the 
negotiated Capability D milestones.

    Question 3. Has NASA performed a cost-benefit analysis for Option 
D?
    Answer. NASA has not performed a high fidelity cost-benefit 
analysis for Capability D. However, NASA has conducted a cost trade 
(SAA Capability D versus no Capability D) to evaluate the impacts to 
International Space Station crew and cargo transportation budget 
requirements should Capability D become available.

    Question 4. Does NASA think that either company could have a human-
rated spacecraft ready by 2010?
    Answer. No. As defined in the current Space Act Agreements, SpaceX 
would conduct their final crew demonstration flight in April 2012, 
based on a start date of December 2009. Likewise, Rocketplane-Kistler 
would conduct their final crew demonstration flight in August 2012, 
based on a start date of January 2009.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                             John C. Karas
    Question 1. Last year, Lockheed Martin entered into an agreement 
with Bigelow Aerospace to study using human-rated Atlas V rockets for 
space tourism. How long and how much money would it cost for Lockheed 
Martin to human-rate the Atlas V?

    Question 2. Do you think the Atlas V could be used to transport 
crew to and from the International Space Station?

    Question 3. If, yes, do you think that a human-rated Atlas V would 
be cost competitive with the Orion/Ares launch vehicle?
    Answer 1-3. Lockheed Martin is no longer responsible for 
development of the Atlas V launch vehicle or Atlas V variants. It is 
recommended that all questions regarding the Atlas V be directed to 
United Launch Alliance (ULA), a newly formed company that is 
responsible for development and sales of the Atlas V and Delta IV 
launch vehicles. Lockheed Martin fully supports NASA in their approach 
to developing the Ares I Crew Launch Vehicle, leveraging Shuttle 
technology to effectively address U.S. needs to launch humans to space.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                             John C. Karas
    Question 1. Is it correct to say that there are no ``technical long 
poles'' in the development of the Orion vehicle as presently designed 
that would keep you from accelerating development of that vehicle?
    Answer. Because the Orion vehicle requires minimal technology 
development, leveraging recently matured technologies that have been 
proven in other applications, we do not currently see any ``technical 
long poles.'' However, the integration and systems engineering effort 
in developing a human-rated spacecraft requires compliance with 
rigorous standards and processes, including a comprehensive test 
program. Success lies in our diligent management of integration, 
processes, and coordination. This management task cannot be rushed 
beyond the reasonably aggressive schedule that NASA has developed. 
Working closely with NASA and barring any further erosion of NASA's 
Exploration budget, we plan to deliver a vehicle in time to meet NASA's 
schedule for Initial Operating Capability (IOC) in March 2015.

    Question 2. What is the earliest that you could deliver the Orion 
spacecraft, given no budgetary constraints? What would be your estimate 
of the cost difference to accomplish that, between what you now have 
planned and what that would require?
    Answer. Based on NASA's program formulation and systems assessments 
addressing all elements necessary for a successful operational launch, 
including the launch vehicle and ground infrastructure, and based on 
the reality of budget constraints, the current NASA plan for IOC in 
March 2015 is reasonable. NASA is responding to questions from your 
Committee regarding cost differences to accelerate IOC. I respectfully 
defer to NASA on responses to program cost questions.

    Question 3. What is the last possible moment when your Michoud 
facility would be capable of building a Space Shuttle external tank?
    Answer. Critical skills will start to roll off the program 
beginning in late 2007 and early 2008 as different work stations 
complete their activities on the last External Tank. Given the 
production cycle time required to build an ET, authority to build 
additional tanks must be received in early summer 2007.

    Question 4. Your statement speaks about the ``pipeline of 
projects.'' Can you provide a specific description, from your company's 
perspective, of the status of the Space Shuttle-related ``pipeline,'' 
in terms of what is needed to keep it flying? Is that pipeline already 
running dry?
    Answer. The suppliers for ET are being terminated now, so the 
pipeline is already starting to run dry. Authority would be needed very 
early this summer to maintain production capability.

    Question 5. You mention, perhaps a little facetiously, the value of 
``Jolt Cola'' in carrying forward with our next adventures in space. 
What kind of ``jolt'' do you think is needed to ensure that the 
political and budgetary support is both stable and adequate?
    Answer. Due to the gap between retirement of the Shuttle in 2010 
and Orion and Ares I operations in early 2015, we will be faced with 
the challenge of maintaining a highly skilled and experienced 
workforce. The future of U.S. ability to put humans in space is 
dependent on our ability to retain our experienced workforce and 
supplier base and excite the next generation of engineers, scientists, 
and explorers. I believe it is ``jolting'' to consider the possibility 
that the U.S. risks losing our leadership in human spaceflight if we 
further delay operations of the next generation of human spaceflight 
systems.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Johnny Walker
    Question. Mr. Walker, what are your members being told to expect 
during this transition period? Do we yet understand the impact of the 
transition on the NASA and contractor workforce?
    Answer. While I would not accuse NASA of being dishonest, there are 
clearly many unanswered questions concerning the transition. Part of 
this I believe comes from the unknowns regarding the scope of the 
funding that will be available and the lack of a clearly developed 
transition plan. Any transition plan must include labor and community 
representatives, as well as contractors, in its development and 
implementation. A jointly created communications plan will be a key 
component of any transition plan.
    The types of communication tools could be:

  <bullet> NASA Television

  <bullet> Center-wide Face-to-Face

  <bullet> Defined NASA office with responsibility for interfacing with 
        workforce

  <bullet> Develop hot line for employee questions

    The open and honest sharing of information will allow us to 
formulate an effective communications plan and to answer the question 
``what will happen to me?'' that so many employees are asking.
    If I may be of further assistance please contact me at any time. 
Thank you for your assistance and support.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                             Johnny Walker
    Question. In your statement you have expressed concern that the 
mistakes made in the past regarding sustaining a viable talented 
workforce may be about to be repeated in this next transition. What are 
the key steps you believe NASA--and this Congress--should take to avoid 
that?
    Answer. First, Congress needs to adequately fund our space program. 
This will signal our commitment to a dedicated and skilled workforce 
that their efforts are understood and valued. The money required to 
close the gap between the two programs is not significant in the grand 
scheme of things. It would be my suggestion, as well as others, that 
the only way to avoid a major impact to working families and our 
communities, that support our great space program, is to close the gap 
between the fly-out of the Space Shuttle and the launching of the new 
Orion and Ares space systems.
    I am also deeply concerned to learn that our transition plan 
requires us to utilize foreign nations, such as, Russia, Japan and 
European agencies, to supply and to launch manned vehicles (American 
astronauts) to the Space Station. At a time when supporters of NASA 
like yourself have to fight for the necessary funding to keep our space 
program on track, I have ask what kind of support or funding are we to 
give to foreign nations to provide the services that will be required 
to keep the Space Station flying? Why not apply those funds to closing 
the gap between the Shuttle and Orion/Ares programs? Also, we must 
consider the cost in today's dollar terms versus 4 or 5 years from now.
    During the fly-out of the Titan program, in order to keep a stable 
workforce, and provide a stable transition to new jobs, there was an 
incentive program put forward to engineering hourly and hourly 
individuals to stay until fly-out. I would suggest that if we cannot 
move right into the next program, this should be considered.
    During this transition, communications between NASA, contractors, 
and the workforce must be open, frequent, and honest. The planning 
process for the transition must include all important stakeholders 
including union and community representatives. We must jointly identify 
the key challenges that we will face. Further, we also need to jointly 
develop and implement the solutions to these challenges. It is 
impossible to predict all of the problems that we will encounter, but 
if we work together we will have a much better opportunity to 
successfully manage a very difficult situation.
    I appreciate your concern and your commitment and will offer any 
assistance that you may need to help us move forward.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          Ronald D. Dittemore
    Question 1. You have referred to a series of ``plateaus'' that can 
mitigate some of the transition challenges we are facing between the 
Shuttle and Ares/Orion availability. What are the risks you see that 
would cause those ``plateaus'' to crumble?
    Answer. The ``plateaus'' that you refer to in the question are what 
I call ``soft landings'' where critical skills are required to meet new 
mission objectives. Additional missions and mission objectives were 
provided in the post-Apollo era and are also being implemented today. 
These added objectives or requirements are a very effective method to 
maintain skill sets onboard as a bridge to the next generation of 
spaceflight programs.
    In the post-Apollo era the Skylab Program and Apollo-Soyuz Test 
Project served as a bridge to the Space Shuttle. Similarly, an Ares I 
test flight program is planned that bridges the gap between the last 
Shuttle flight and the start of Ares I operational capability, 
utilizing the talents across industry and NASA's field centers. These 
test flights are absolutely necessary as a part of the Ares I 
development program but they have the secondary benefit of providing an 
avenue of transition where critical skills and experience are captured 
and retained. Additionally, the continued operation of the 
International Space Station provides the means to retain critical 
mission management and operations skills at the Johnson Space Center 
that will be directly applicable to future lunar missions.
    The gap between operational programs represents a risk. Any 
increase in the gap exacerbates transition risks. Increasing the number 
and frequency of test flights using Ares I hardware and processes can 
offset a portion of the risk. But it is absolutely clear that an 
increase in the gap is a significant impact to the manufacturing as 
well as the operations communities.

    Question 2. What is the earliest that you could deliver the Ares I 
launch vehicle, given no budgetary constraints? What would be your 
estimate of the cost difference to accomplish that, between what you 
now have planned and what that would require?
    Answer. First, I must point out that since the Ares I Upper Stage 
and Avionics procurements are still in the competitive phase, I can 
only speak for the Ares I First Stage--which is under contract to ATK. 
A more complete answer on the overall Ares I Launch Vehicle and Orion 
Crew Exploration Vehicle would have to come from NASA.
    With that said, we are on schedule to conduct the Ares I-X test 
flight, utilizing a modified four-segment Space Shuttle Solid Rocket 
Booster with a fifth segment simulator, in April 2009. Also in April 
2009, the first of five ground tests of the Ares I five-segment first 
stage booster are schedule to begin and continue through 2011. Under 
the plan that was laid out before the impact of the Continuing 
Resolution, these ground tests were to lead to three test flights 
without crews in 2012 and 2013--and the first human flights in 2014. 
For us to stay on that schedule, we have to assume that there is a 
satisfactory budgetary solution to account for the Continuing 
Resolution impact.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                                Allen Li
    Question 1. What role do you believe GAO can play in helping this 
subcommittee and the Congress monitor and address the challenges you 
have identified, and other witnesses have identified, in successfully 
making the transition to the next generation of human spaceflight?
    Answer. GAO is well positioned to provide the Subcommittee the 
insight and foresight to complement the Subcommittee's oversight 
responsibilities. We have performed work on NASA for the Congress for 
many years. Our oversight work has focused on the acquisition and 
development of space systems, Space Shuttle operations, financial 
management, human capital and ensuring that NASA complies with 
applicable laws and regulations, and guarding against fraud, waste, 
abuse, and mismanagement. Our work also provides important insight on 
what programs, policies, and questions are working well and what best 
practices can be shared to achieve successful program outcomes. To 
assist with the Subcommittee's oversight responsibilities, we could 
provide detailed analysis and information on a variety of transition 
issues facing NASA such as:

  <bullet> the progress of the development and acquisition of the Orion 
        Crew Exploration Vehicle and the Ares I Launch Vehicle,

  <bullet> the effect of the retirement of the Space Shuttle on the 
        workforce,

  <bullet> the Nation's ability to launch human spaceflight systems in 
        the future,

  <bullet> monitoring the viability of commercial companies to provide 
        cargo and crew rotation services to the Space Station, and the 
        organizational health of NASA centers.

    We would be glad to meet with the Subcommittee to discuss your 
specific needs, identify work being performed at the request of 
Congressional Committees, and explore how GAO can be of assistance.

    Question 2. In your statement, you mentioned NASA's agency-wide 
Strategic Human Capital Plan? What is your assessment of it?
    Answer. We are currently reviewing NASA's ability to attract and 
retain a skilled workforce for the Senate Committee on Homeland 
Security and Governmental Affairs, Subcommittee on Oversight of 
Government Management, the Federal Workforce, and the District of 
Columbia. As part of our work, we are reviewing the extent to which 
NASA's human capital framework is aligned to its strategic mission, 
outcomes, and programmatic goals. Studies by several organizations, 
including GAO, have shown that successful organizations in both the 
public and private sectors use strategic management approaches to 
prepare their workforces to meet present and future mission 
requirements. Strategic workforce planning specifically involves 
systematic assessments of current and future human capital needs and 
the development of long-term strategies to fill the gaps between an 
agency's current and future workforce requirements. When our work is 
completed, we will be able to update the Subcommittee on our views of 
NASA's human capital management.

    Question 3. Have you reviewed the Human Spaceflight Transition Plan 
of July 2006 and the Shuttle Human Capital Plan submitted in April 
2006? What is your assessment of these plans?
    Answer. As part of our work on assessing how well NASA is 
positioning itself to effectively manage its supplier base for 
sustaining the Shuttle and transitioning to the planned exploration 
activities for the House Committee on Science and Technology, we are 
examining the Human Spaceflight Transition Plan, and other plans 
related to the transition. It appears that NASA has in place many 
processes, procedures, and support systems to carry out this 
transition, and successful implementation will depend on thoughtful 
execution and effective oversight. Although these plans provide an 
overarching strategy for the agency, NASA has not developed a 
comprehensive cost estimate for retiring the Space Shuttle and the 
associated transition costs.
    Competing demands within the agency, coupled with a declining 
supply of Federal discretionary funds, means that NASA will undoubtedly 
be operating in a constrained fiscal environment. Consequently, it is 
imperative that NASA successfully manage its limited resources in order 
to achieve successful outcomes. Regarding the Shuttle Human Capital 
Plan, we are reviewing it and are not in a position to answer your 
question at this time.

    Question 4. With a selected date to retire the Shuttle and begin 
the gap in U.S. human spaceflight capability, obviously the next key 
issue is that date at which that gap will end, with the operations of 
the replacement vehicles. Based on your studies, how confident do you 
believe we can be in the projected dates for initial Ares I and Orion 
initial operations?
    Answer. NASA maintains a basic assumption that the risks in the 
development of the Orion Crew Exploration Vehicle and the Ares I Crew 
Launch Vehicle are minimal due to the use of heritage hardware and low-
risk technology. While this assumption seems logical on the surface, in 
practice, this has not always been the case. Over the past decade, NASA 
has experienced significant problems with several of its projects that 
were operating under similar assumptions. Moreover, our work on best 
practices in system development has found, all too often, that agencies 
allow programs to proceed without developing key elements of a sound 
business case. These elements include well-defined requirements, mature 
technology, a preliminary design, and firm cost estimates. Without such 
knowledge, NASA cannot predict with any confidence how much the program 
will cost, what technologies will or will not be available to meet 
performance expectations, and when the vehicle will be ready for use. 
NASA has acknowledged that it will not have these elements in place for 
the Orion Crew Exploration Vehicle until the project's Preliminary 
Design Review, which is scheduled for Fiscal Year 2008. As part of our 
ongoing work for the House Committee on Science and Technology, we are 
evaluating the extent to which NASA's Ares I acquisition strategy 
incorporates knowledge-based concepts designed to minimize technical 
and programmatic risk. We are concerned that NASA is using a similar 
acquisition strategy to that used for Orion. Continued Congressional 
oversight will be critical for ensuring that these projects stay within 
cost and schedule goals.

    Question 5. You indicate you are reviewing the needs and plans for 
ISS logistics and maintenance support. What level of onboard research 
activity are you using as a baseline for this review? Will you be 
taking into account the possibility of expanded research operations 
anticipated by implementation of the national laboratory designation of 
the ISS?
    Answer. To evaluate logistics necessary to support ISS research, 
GAO is reviewing information from a variety of sources, including 
NASA's Research and Utilization Plan for the International Space 
Station, ISS User Operations Panel information, ISS Cargo Requirements 
and Traffic Model summaries, and NASA integrated resupply requirements. 
Our review should provide the Congress with information on whether 
NASA's cargo and crew transportation strategy would support or 
constrain expanded research opportunities for ISS operations as a 
national laboratory.

                                  <all>

</pre></body></html>
